<html>
<title> - LUMBEE RECOGNITION</title>
<body><pre>[Senate Hearing 108-336]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-336

                           LUMBEE RECOGNITION

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

                                 S. 420

TO PROVIDE FOR THE ACKNOWLEDGMENT OF THE LUMBEE TRIBE OF NORTH CAROLINA

                               __________

                           SEPTEMBER 17, 2003
                             WASHINGTON, DC



89-476              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
S. 420, text of..................................................     2
Statements:
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      chairman, Committee on Indian Affairs......................     1
    Campisi, Jack, tribal historian, Lumbee Tribe, North Carolina    32
    Dole, Hon. Elizabeth, U.S. Senator from North Carolina.......    12
    Faleomavaega, Hon. Eni, U.S. Delegate from American Samoa....    16
    Hunt, Milton, chairman, Lumbee Tribe, North Carolina.........    23
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, vice 
      chairman, Committee on Indian Affairs......................    11
    Locklear, Arlinda, tribal attorney, Lumbee Tribe, North 
      Carolina...................................................    36
    Martin, Aurene, principal deputy assistant secretary, Indian 
      Affairs, Department of the Interior........................    18
    Martin, James T., executive director, United South and 
      Eastern Tribes, Nashville, TN..............................    40
    McIntyre, Hon. Mike, U.S. Representative from North Carolina.    14

                                Appendix

Prepared statements:
    Campisi, Jack (with attachment)..............................    48
    Hunt, Milton (with attachment)...............................    83
    Locklear, Arlinda (with attachment)..........................   108
    Martin, Aurene...............................................    45
    Martin, James T..............................................   131
    Schierbeck, Helen Maynor, Member, Lumbee Tribe, North 
      Carolina (with attachment).................................   141
Additional material submitted for the record:
    Letters......................................................   153

 
                           LUMBEE RECOGNITION

                              ----------                              


                     WEDNESDAY, SEPTEMBER 17, 2003


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
485, Senate Russell Building, Hon. Ben Nighthorse Campbell 
(chairman of the committee) presiding.
    Present: Senators Campbell, Inouye, and Cantwell.

 STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR FROM 
        COLORADO, CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. Good morning. The committee will come to 
order. This will be our first post-recess hearing. This morning 
we will hear testimony on S. 420, the Lumbee Acknowledgement 
Act of 2003, introduced by our colleague, Senator Dole, who is 
with us, as is Congressman McIntyre. I understand that 
Congressman Faleomavaega may be here also.
    Let me proceed just for 1 minute here. We will hear 
testimony from Senator Dole first, and then we will go to 
Congressman McIntyre and then your colleague. At the conclusion 
of that, we then go to the Administration witness because we 
know people have tight schedules, but you are welcome to stay 
here with us throughout the hearing if you would like, sit at 
the dais or sit in the audience, whatever your preference is 
will be fine with us.
    S. 420 will amend the Federal statute relating to the 
Lumbee Indians of North Carolina, enacted in the termination 
period of the 1950's. If enacted, it will provide recognition 
and benefits of recognition to the 50,000-plus member Lumbee 
Tribe of North Carolina.
    [Text of S. 420 follows:]
      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chairman. The act of 1956, as I understand it, was both 
a recognition act and also a termination act at the same time. 
Congress recognized the long history of the Lumbee Tribe and 
individual Lumbees, but instead of welcoming the tribe into the 
family of federally recognized tribes, Congress instead 
basically terminated it. Also, in looking at some of the notes 
that have been provided through staff, I noticed that there 
have been a number of times that the Lumbees have been before 
Congress, going clear back to the 1870's, so this is not the 
first time they have been here on this issue.
    It is an undisputed fact, I believe, that the Lumbees 
descended from an historic Indian tribe, and their current 
situation in terms of housing, health care, and education is 
very, very poor. I have a number of areas that I would like to 
explore with the witnesses, and certainly appreciate Senator 
Dole's leadership on this issue here in the Senate.
    With that, I would like to refer to my colleague and the 
vice chairman, Senator Inouye, for any opening statement he may 
have.
    Senator Inouye. Thank you very much, Mr. Chairman.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
           VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Inouye. Unfortunately, I have another hearing 
scheduled for this moment, but I wanted to be here to welcome 
Senator Dole and the members of the Lumbee Tribe who have 
waited so very long for this day.
    For more than a century, the Congress has been 
deliberating, sometimes actively, sometimes not, on whether to 
extend Federal recognition to the Lumbee Tribe. The first time 
Congress had occasion to address the status of the Lumbee Tribe 
was shortly after the State of North Carolina extended formal 
recognition to the tribe in 1885. A few years later, in 1888, 
the tribe submitted its first petition to the Congress for 
recognition and assistance. The Congress referred the tribe's 
petition to the Department of the Interior and the Commissioner 
of Indian Affairs ultimately denied the tribe's request for 
funding to support the education of tribal children; 11 years 
later, following the Commissioner's determination, the first 
bill to appropriate funds for the education of tribal children 
was introduced in the Congress. Again, the Interior Department 
recommended against Federal assistance for the tribe, and 
thereafter in 1914 the Senate directed the Interior Secretary 
to investigate the condition and the rights of Lumbee Indians 
and to provide a report to the Congress.
    Mr. Chairman, I will not go into the rest of the history of 
the tribe's valiant and persevering efforts to achieve Federal 
recognition. I am certain that will be done by Senator Dole and 
the very capable witnesses who are here this morning. I just 
wanted to assure the leadership and the members of the tribe 
that I fully support your bid for Federal recognition, and I 
will do everything that I can to assist Senator Dole and 
Congressman McIntyre in securing the passage of S. 420.
    I thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Inouye.
    I might tell you, since this is the first time you have 
appeared before our committee Senator Dole, Senator Inouye and 
I have almost always spoken with one voice in our support for 
Indian people in this country. His guidance to me before I 
became chairman in the years he was the chairman have been just 
invaluable to me. So I certainly appreciate his endorsement of 
this bill and his support.
    With that, why don't you go ahead?

   STATEMENT OF HON. ELIZABETH DOLE, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Dole. Thank you very much, Mr. Chairman, for 
holding this important hearing today. You have provided such 
strong leadership on issues concerning Native Americans, and 
you have truly been a visionary in this area, and all have 
benefitted from your commitment, your perseverance, and your 
dedications. So thank you for all that you do.
    Let me thank Ranking Member, Senator Inouye. You have been 
a champion as well, working for the betterment of your own 
State's native people and improving the lives of all Native 
Americans. I am deeply grateful to you both, and it is a 
privilege to serve with both of you in the U.S. Senate.
    I certainly want to thank the members of the Lumbee Tribe 
who have traveled here in the face of Hurricane Isabel. We meet 
today to focus on an issue that I made a top priority once I 
arrived in the Senate, the terrible injustice that has been 
done to the Lumbee Indians. Full Federal recognition for this 
tribe has been unfairly denied for decades. We have a chance, 
Mr. Chairman, to right this wrong in the United States Senate. 
I am passionate about this matter, the subject of the first 
legislation I submitted as a U.S. Senator, the bill before us 
today.
    In visiting with the Lumbees and the residents of Robeson 
County, where most Lumbees live, one occasion in particular 
stands out in my mind, a rally earlier this year with 
Congressman Mike McIntyre, for whom I have great admiration. It 
brought together the whole community with the common goal of 
getting the Lumbees the recognition they rightfully deserve. I 
am so impressed with the determination of the Lumbees. They are 
a people of great pride and I am in awe of their steadfastness 
on this issue, even after years of disappointments. Spending 
time with them has invigorated me in my effort to end this 
injustice.
    Mr. Chairman, for more than a century the Lumbees have been 
recognized as American Indians. North Carolina formally 
recognized the tribe in 1885. It was just 3 years later, in 
1888, that the tribe began what would become a long quest for 
recognition and assistance from the Federal Government. There 
have been numerous studies by the Department of the Interior, 
beginning as early as 1913, then again in 1914, and yet again 
in 1933. Each time, it has been determined that the Lumbees are 
indeed an Indian tribe.
    There are more than one-half dozen instances when 
legislation was introduced, legislation which remained inactive 
or was passed by only one body. Finally in 1956, Congress 
passed the Lumbee bill which recognized the tribe, but there 
was a caveat which brings us to this hearing today. That 
legislation denied the tribe the benefits and privileges that 
every other federally recognized tribe enjoys. This 
discrimination must end. The Lumbees deserve full recognition 
for their tribe, not a partial nod that ignores the history and 
the efforts of so many ancestors.
    I introduced S. 420 as my first bill in the U.S. Senate 
because it is the right thing to do. It is the fair thing to 
do. This legislation will reverse that 1956 decision by 
Congress denying full recognition. Passage will allow the tribe 
to receive much-needed assistance in areas like education, 
health care, and economic development.
    I know there are those who have argued and will do so again 
today that the Lumbees should go through the Bureau of Indian 
Affairs [BIA] for Federal recognition. That process is reserved 
for tribes whose legitimacy must be established. That is not 
the case with the Lumbees. In fact, the legitimacy of this 
tribe has been established time and time again, dating back to 
the late 1800's. The Federal Government has already spent the 
money and concluded that the Lumbees are an Indian tribe 
descended from the historic Cheraw Indians. There is no need to 
waste the tribe's or the Government's time and money again. 
Congress has never passed a special statute to send a tribe to 
the administrative process.
    It has also been documented by the General Accounting 
Office that getting through the BIA can take years. If I may 
quote from that 2001 GAO report:

    Because of weaknesses in the recognition process, the basis 
for BIA's tribal recognition decisions is not always clear, and 
the length of time involved can be substantial.

    That report says it may take up to 15 years to resolve 
completed petitions, 15 years. The Lumbees have already waited 
far too long. It is wrong to impose yet another lengthy delay 
on this tribe. It has been over 100 years, Mr. Chairman. Let's 
not make them wait another 15 years
    Let us do what is fair, what is right, to resolve this 
injustice. This tribe with 53,000 members is the largest tribe 
east of the Mississippi and the largest non-federally 
recognized tribe in the entire United States of America. The 
Lumbees have contributed so much not just to North Carolina's 
heritage, but to our entire Nation. They deserve full 
recognition now.
    For weeks, I have heard about the excitement building among 
the Lumbees because of the opportunity to come here and to make 
their case once again. I spoke earlier of the Lumbees' 
dedication to this issue and how their passion continues to 
inspire me. Among us today is Emma Lee Locklear whose 
grandfather, Hezekiah Locklear, signed the petition for Lumbee 
recognition in 1888. Emma is here to continue the family's 
tradition of fighting for the rights of Lumbees, and I am 
determined to fight with her for what is right. I want to ask 
Emma to stand 1 moment so that we can recognize here.
    [Applause.]
    Senator Dole. I urge this committee, Mr. Chairman, to act 
now. Pass S. 420 so that Emma's work and that of her 
grandfather so many years ago will not have been in vain.
    Congressman Mike McIntyre is a dear friend and colleague 
from North Carolina who is sponsor of the Lumbee bill in the 
House. Mike has been such a champion of the Lumbee cause and 
has done an outstanding job in bringing all the parties 
together on this. I am so very pleased to work with him.
    Following Congressman McIntyre and Congressman 
Faleomavaega, you will hear from three additional individuals 
who are truly dedicated to the cause of the Lumbees. Milton 
Hunt has become a dear friend through our work on recognition 
for the Lumbees. He is chairman of the tribe and mayor of 
Pembroke, and has led the way in rallying the entire community 
around full recognition for the Lumbees. Arlinda Locklear is an 
attorney with Patton, Boggs and is a nationally recognized 
expert in the area of Indian tribes. She became the first 
Native American woman to appear before the U.S. Supreme Court 
in 1984, and she is a member of the Lumbee Tribe. And Dr. Jack 
Campisi is an expert on Lumbee issues after having spent long 
hours researching the Lumbees while living among them, right 
there in Robeson County. He is a professor at Wellesley College 
and has done extensive research on tribal communities. They 
will answer any technical questions that you may have.
    Again, Mr. Chairman, thank you very much for the privilege 
of being here today. Thank you.
    The Chairman. Thank you for that very fine statement. I 
certainly commend all the people that have come all the way 
from North Carolina. I was watching the Weather Channel just a 
little while ago and it does not look good for the Outer Banks 
and further inland, too.
    We will now go to Congressman Mike McIntyre. Thank you for 
appearing, Mike, and we will then continue with Eni 
Faleomavaega.

STATEMENT OF HON. MIKE McINTYRE, U.S. REPRESENTATIVE FROM NORTH 
                            CAROLINA

    Mr. McIntyre. Thank you, Senator.
    Mr. Chairman, Ranking Member Inouye, and members of the 
committee, thank you for the opportunity to testify before you 
today regarding Federal recognition for the Lumbee Indians. And 
a special thanks to my friends and North Carolina colleagues, 
Senator Dole and Senator Edwards, and their staffs for their 
work and leadership on this critical issue. I especially thank 
Mrs. Dole for requesting this hearing so that we could move 
ahead on this process. I am also grateful to my colleague Eni 
Faleomavaega, who for many years has worked on Indian 
recognition efforts over in the House.
    In the late 1500's when English ships landed on the shores 
of the Roanoke Island, right in the area where the hurricane is 
now headed, on the North Carolina coast, the Englishmen 
discovered Native Americans. Included among those Native 
Americans were both Cheraw and Pee Dee Indians who are direct 
ancestors of the Lumbee Indians. Later, in 1888, the Lumbees 
made their first effort at gaining Federal recognition. For at 
least 500 years, Lumbee Indians have been inhabitants of this 
land, and over half the time that our country has been in 
existence, 115 of the last 227 years, the Lumbee Indians have 
been seeking recognition. Over one-half the history of our 
Nation, they have been seeking this recognition and respect 
that they so well deserve.
    As the largest tribe east of the Mississippi and the 
largest non-recognized tribe in America, it is unfathomable to 
think that this tribe of almost 55,000 people has never been 
fully recognized by our own government. Mr. Chairman, indeed 
the time for Lumbee recognition has come. I was born and reared 
in Robeson County, North Carolina, the primary home of the 
Lumbee people. I go home almost every weekend and have the high 
honor of representing approximately 40,000 Lumbees who live in 
my home county. In fact, there are more Lumbees in Robeson 
County than any other racial or ethnic group. The Lumbee 
Indians, many of whom are here in the audience today, are my 
friends, many of whom I have known all my life.
    Senator, as you pointed out, so many have traveled today 
with an impending storm coming, and will be leaving soon 
hereafter. With the Senators' indulgence, I would just like to 
honor them by asking them to stand if they have come here 
today. Would all the Lumbees please stand?
    [Applause.]
    The Chairman. Nice crowd.
    Mr. McIntyre. Thank you very much.
    The Chairman. I hope their journey home will be safe from 
this impending storm.
    Mr. McIntyre. Thank you, sir.
    The Lumbees are important to the success of everyday life 
in Southeastern North Carolina, and their contributions to our 
society are numerous and endless, from medicine and law to 
business and banking, from the farms and factories to the 
schools and the churches, from government military and 
community service to entertainment and athletic 
accomplishments. The Lumbees have made tremendous contributions 
on the county, State and indeed the national level. In fact in 
my home county alone, my sheriff, my clerk of court, registrar 
of deeds, chairman of the county commissioners, and indeed my 
representative in the State legislature, as well as two of my 
district court judges and one of my superior court judges are 
all Lumbee Indians.
    Mr. Chairman, those contributions are being recognized by 
my colleagues over in the House through their support of H.R. 
898, legislation that I have introduced to grant the Lumbees 
Federal recognition. I am pleased to report today to the Senate 
Committee on Indian Affairs that 225 members of the U.S. House, 
on a bipartisan basis from every region, both sexes, every 
race, have cosponsored Lumbee recognition. The last time a vote 
occurred on the floor of the U.S. House to recognize the 
Lumbees, it had 20 sponsors. Today, we have more than 10 times 
that number, in fact more than 11 times that number of 
cosponsors.
    The Lumbee contributions are being recognized at home also 
by both the public and the private sector. Mr. Chairman, from 
city councils to county commissions to chambers of commerce to 
our local medical center, to other organizations throughout 
North Carolina, we have letters of endorsement and resolutions 
that have been passed by these public and private bodies to 
seek recognition for the Lumbees.
    Mr. Chairman, in conclusion let me urge this committee, and 
in fact all of the U.S. Congress, to proceed with recognition 
for the Lumbee Indians. Justice delayed is justice denied. For 
too many years there have been too many delays. As you will 
hear from the next panel that will follow Mr. Faleomavaega, the 
evidence is clear, cogent, and convincing. It indeed is time to 
say yes to dignity and decency, yes to fundamental fairness, 
yes to respect, yes to honor, indeed yes to Federal 
recognition.
    It is time for discrimination to end and recognition to 
begin.
    Thank you for this opportunity to testify. Mr. Chairman, I 
look forward to working with you, my colleagues Mrs. Dole and 
others here in the Senate, and also with this committee, with 
Mr. Edwards of North Carolina, with my colleagues from North 
Carolina and the other sponsors from across the Nation, for 
this long overdue recognition.
    May God grant that justice will finally be done, and with 
your help I am confident it will.
    Thank you, Mr. Chairman.
    [Applause.]
    The Chairman. Thank you.
    Congressman McIntyre, where is the House bill now? What is 
the disposition of the bill?
    Mr. McIntyre. It is pending in the House Resources 
Committee.
    The Chairman. It has not been heard yet?
    Mr. McIntyre. Not yet, sir. You are first. [Laughter.]
    The Chairman. We have a number of letters of support, and 
you mentioned some of the support from people who are in 
office. I know Senator Edwards has been rather busy lately, but 
I asked staff before we came in if we have anything from him. 
We do not have anything on record. You might ask him if he 
would submit a letter of support for the committee for our 
records.
    Now, we go to a really terrific friend of mine, Congressman 
Faleomavaega. A lot of people think that I am the only Native 
American around here, but he is an honest-to-gosh Native 
American, too, being a chief of the Samoan Tribe. He has always 
been very active in the Native American Caucus, and someone we 
could always rely on to help Indian people.
    Eni, nice to see you here.

STATEMENT OF HON. ENI FALEOMAVAEGA, U.S. DELEGATE FROM AMERICAN 
                             SAMOA

    Mr. Faleomavaega. Mr. Chairman, I thank you for that kind 
recognition. There is probably a sense of curiosity from some 
of the people here in the audience as to what in the world a 
member of the Samoan Tribe is doing here, living 10,000 miles 
away from Washington, DC.
    First of all, Mr. Chairman, I want to express my most 
sincere appreciation to the leadership that Senator Dole and 
her colleagues have shown, especially to my good friend and 
colleague, Mr. McIntyre.
    Excuse my being very emotional about this issue. For the 
past 12 years I have had the privilege of working very closely 
with the members of the Lumbee Nation. I have felt such 
disappointment over the years, feeling that I had failed in my 
efforts in trying to erase the tremendous injustice that has 
been done to the Lumbee Nation.
    Mr. Chairman, I believe it is important to note that the 
policy of the United States has been terribly inconsistent with 
regard to the first Americans, the original inhabitants of this 
Nation. Our first policy was to do battle with them. General 
Sheridan epitomized the prevailing opinion at the time in 1869 
when he said, ``The only good Indians I ever saw were dead.''
    Our next policy was that of assimilation. During this 
period, the United States attempted to make Indians part of 
mainstream America, forcing the Indians to relinquish ties to 
their cultures and their way of life. Since the 1950's, this 
country adopted the policy of termination, followed by 
reinstatement of the current policy of administrative 
recognition.
    Throughout this entire period, the Lumbee have fought for 
Federal recognition, having submitted about 14 petitions. This 
is the 15th time now, Mr. Chairman. I hope that we will finally 
put this matter to rest for this Nation that has tried in every 
possible way to comply with our regulations and rules. For over 
100 years they have been denied the recognition that they so 
deserve.
    I should also mention that many of the Lumbee men and women 
serve honorably in the military. They have spilled their blood 
and have died in defense of this Nation, and still the Congress 
and the Federal Government has refused to give them the full 
recognition as they deserve. There may be some members of the 
Administration, Mr. Chairman, that will say that the Lumbee 
people have not complied with the rules and regulations that 
have been established in the 1970's. Let me tell you something. 
We held oversight hearings about 7 or 8 years ago about the 
current policy of recognition as is done by administrative 
procedure. It is not done by congressional statute. I will 
never forget the day that even the man who wrote the 
regulations on administrative recognition of Native Americans 
testified and confessed that even he would not have been able 
to provide any sense of reasonableness and fairness as to how 
an Indian tribe could be recognized through the current 
administrative procedures.
    I must say, Mr. Chairman, recognition is long overdue. 
Again, I cannot thank Senator Dole and my good friend Mr. 
McIntyre enough for their tremendous hard work in bringing this 
legislation forward on a bipartisan basis. We must also 
remember that the Congress still has the ultimate authority and 
its own discretion as to whether or not to grant Federal 
recognition to any tribe that petitions the Congress.
    I think this is a very historical day for the Lumbee 
people. I sincerely hope, Mr. Chairman, that your committee 
will give favorable consideration to this legislation, as we on 
the House side will do everything we can to make this year 
truly a year rectifying a history of pain and suffering. It is 
bad enough to say that you are not an Indian, a first American, 
but when you are subjected to full examinations to say what 
kind of teeth you have in order to determine whether or not you 
are Indian, it is the most insulting thing that I have ever 
heard. Some of the Lumbee people have had to testify in our 
committee that these are the kinds of procedures that they had 
to go through. Where do you get the money to pay the attorneys 
and the anthropologists? It is unbelievable what we have done 
in the recognition process. I sincerely hope, Mr. Chairman and 
I look forward in working with you on this so we can improve 
the current procedures. Maybe we have to do it statutorily and 
not by the administrative process.
    With that, Mr. Chairman, again I want to thank Senator Dole 
for the tremendous leadership that she has shown in working on 
this on a bipartisan basis. This is not a partisan issue. This 
is not a Republican or a Democrat issue. This is an issue of 
doing something about what has been wrong for these people. 
They deserve recognition, Mr. Chairman, and I sincerely hope 
that your committee will give favorable consideration to this 
proposed bill.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Eni.
    [Applause.]
    The Chairman. This is not a partisan committee, either. We 
pride ourselves in making sure that it is non-partisan. You 
know as well as I do, being here a long time, this is a tough 
place, but I have to take exception to one statement you made 
in your discourse there. Nobody has ever believed you have ever 
failed Indian people. Your efforts are well known to them and 
well known to this Congress, too. So I want to correct that for 
the record. You have been an absolute stalwart leader of the 
issues here.
    As I mentioned before, you are certainly welcome to sit at 
the dais or stay, depending on your schedule. We will now go to 
Aurene Martin, the principal deputy assistant secretary of 
Indian Affairs from the Department of the Interior.
    Ms. Martin, welcome before the committee, a former staffer 
here on the committee. We still miss your hard work when you 
were with us here. I understand we now have a nominee that we 
will be hearing shortly for the assistant secretary position, 
but I know that you have done a terrific job as the acting 
assistant secretary and will continue to do so until there is a 
new appointee.
    With that, why don't you go ahead and proceed.

   STATEMENT OF AURENE M. MARTIN, PRINCIPAL DEPUTY ASSISTANT 
    SECRETARY FOR INDIAN AFFAIRS, DEPARTMENT OF THE INTERIOR

    Ms. Martin. Thank you. Good morning, Mr. Chairman. My name 
is Aurene Martin and I am the principal deputy assistant 
secretary of Indian affairs at the Department of the Interior.
    I am here today to present the views of the Administration 
on S. 420, the Lumbee Acknowledgement Act of 2003. The 
recognition of a sovereign is one of the most solemn and 
important responsibilities delegated to the Secretary of 
Interior. Federal acknowledgement of an Indian tribe 
establishes the government-to-government relationship between 
the United States and the tribe and carries with it certain 
immunities and privileges. It also establishes responsibilities 
for the Department of the Interior with respect to the tribe.
    The Department has promulgated rules which outline the 
process that must be followed and has established criteria that 
a petitioner must meet to become acknowledged. In order to 
become acknowledged, a petitioner must meet seven criteria. The 
petitioner must demonstrate that it has been identified as an 
American Indian entity on a substantially continuous basis 
since 1900. The petitioner must also show that a predominant 
portion of the petitioning group comprises a distinct community 
and has existed as a community from historical times until the 
present.
    Third, the petitioner must demonstrate that it has 
maintained political influence or authority over its members as 
an autonomous entity from historical times to the present. The 
petitioner must also provide a copy of the group's present 
governing document, including its membership criteria. The 
petitioner must also demonstrate that its membership consists 
of individuals who descend from an historical Indian tribe or 
from a group of historical Indian tribes that combined and 
functioned as a single autonomous political entity, and provide 
a current membership list.
    The petitioner must also show that the membership of the 
petitioning group is comprised principally of persons who are 
not members of any acknowledged North American Indian tribe. 
Finally, the petitioner must also demonstrate that neither the 
petitioner or its members are the subject of congressional 
legislation that expressly prohibits, terminates or forbids the 
Federal relationship.
    If a petitioner presents evidence which meets all seven of 
these criteria, it will be acknowledged.
    While Congress clearly possesses the power to recognize 
tribes, the Department has traditionally opposed congressional 
attempts to recognize tribal groups, largely because the 
criteria and process the Department has established provide for 
thorough analysis and deliberation and consistency in 
decisionmaking.
    Unfortunately, the Lumbee are unable to avail themselves of 
the Department's acknowledgement process because they have been 
barred by participation in Federal programs designed to serve 
Indians by the Act of June 7, 1956. That act, while clearly 
identifying the Lumbee as Indian persons, specifically 
prohibited them from accessing services and statutes available 
to Indians because of their status as Indians.
    Because the Department has interpreted this law as 
forbidding them from participating in the Federal 
acknowledgment process, it recognizes that some legislation is 
needed, given the unique status of the Lumbee. Such legislation 
could authorize the Lumbee to participate in the Department's 
acknowledgement process and the Department stands ready to 
assist in drafting such legislation.
    If, however, Congress determines to recognize the Lumbee 
legislatively, there are a number of issues the Department 
believes should be addressed. The Department is currently 
devoting a great deal of time and effort to effecting trust 
reform and participating in litigation whose very subject is 
the trust relationship. Both the Department and the courts are 
attempting to define the trust relationship and the specific 
duties and responsibilities of the United States with regard to 
tribes. Much of the confusion over the role of the United 
States as trustee stems from the lack of clear guidance as to 
what the exact roles and responsibilities of both the trustee 
and the beneficiary are.
    The Department, therefore, recommends setting out the 
details of this relationship from the time it is created, 
either through legislation, or through some other trust 
instrument.
    Also, this bill designates Robeson County as the tribes 
reservation and several surrounding counties as a service area. 
Congress has typically identified service areas for a tribe 
while the initial reservation is identified later by parcels of 
land acquired in trust on behalf of the tribe. While S. 420 
specifically confers jurisdiction on the State within Robeson 
County, the reservation designation still raises some issues 
with respect to the ability of the tribe to zone in the county, 
make other land-use decisions, and exercise an ability to tax 
within the county.
    Finally, the Department has concerns with the provision 
requiring the secretary to verify tribal membership. In our 
experience, this is a time-consuming and work-intensive 
process. It has taken several years to complete with even 
smaller groups. Typically, it requires a review of every 
individual's genealogical history, tracing it from the present 
back to a person who was a member of the historical tribe from 
which the person is descended.
    In the 1980's, the Department received a document 
identifying the membership of the Lumbee at over 27,000 
persons. Current estimates place the membership in excess of 
40,000. The Office of Federal Acknowledgement estimates, based 
on our current staff levels and the number of persons involved 
in the membership, that verification of the membership will 
take several years and that it cannot be effected in less than 
1 year.
    The Department is willing to work with the committee to 
work out these issues. At a minimum, however, we support the 
amendment of the 1956 Act to authorize the Lumbee to 
participate in the Department's acknowledgment process.
    This concludes my testimony this morning. I have provided a 
written statement which I would request be made part of the 
record.
    The Chairman. Without objection, your complete testimony 
will be in the record.
    [Prepared statement of Ms. Martin appears in appendix.]
    The Chairman. Let me ask you a few questions, if I may, 
before you have to leave.
    Have you visited this area, Robeson County, yourself by any 
chance, what the Lumbees would call their homeland?
    Ms. Martin. No; I have not.
    The Chairman. I probably ought to ask them. So you do not 
know how much of that land is in private ownership now, would 
you?
    Ms. Martin. I think that all of it is in private ownership, 
and none of it is in trust.
    The Chairman. Well, I will ask them, because I was 
interested in knowing if it is non-Indian-owned land or Indian-
owned land or what, but I will ask them about it.
    Now, as I understand your testimony, as Congressman 
McIntyre said, what we are basically dealing with are the 
regulations, not statutes. As I understand you, they cannot go 
through the BAR process because they were barred from that by 
the 1956 Act. Is that correct?
    Ms. Martin. Yes.
    The Chairman. So it seems to me we have to do one or two 
things, either change the BAR or exempt the tribe, one of the 
two, otherwise they are never going to get from A to B. We have 
to make some changes.
    I introduced a bill, S. 297, that you might want to look 
at. Hopefully, we are going to do at least one hearing on it 
before we adjourn this year. Basically, that is what it does is 
try and ferret through some of the problems with BAR and see if 
we can't streamline it to make it a little easier for those 
people who have just run into this brick wall of recognition.
    From a historical perspective, can you give the committee 
perhaps some background on what legal implications there would 
be if we passed this act?
    Ms. Martin. The tribe has petitioned in the past to become 
a tribe through the BAR process. I think by recognizing them 
legislatively, I have identified a number of concerns. 
Primarily, we have some concerns with regard to what the 
jurisdictional implications might be, although the bill clearly 
confers criminal and civil jurisdiction on the State. There are 
a number of powers that as a sovereign and recognizing the 
tribe as a sovereign, they might still exercise within the 
county. It is unclear whether the intent is there to allow the 
tribe to go ahead and exercise those powers or not.
    The other concern we have, and this is with regard to our 
ongoing efforts at trust reform, one of the most confusing 
things about the trust relationship is that it is not 
identified in a single document. The parameters of it are not 
laid out as one, two, three, or A, B, C. In creating that new 
relationship with any tribe, one of the things that we think is 
important moving forward is to try to identify the parameters 
of that relationship when we create it.
    Finally, we think that there is a significant amount of 
work that needs to be done with verifying the membership and 
doing research with regard to the original historical tribe 
from which the members are descended. That will be a 
considerable amount of work as well.
    The Chairman. Okay, thank you.
    I understand that in 1988 and again in the 1950's, one of 
the rationales, and I know this was long before your tenure, 
one of the rationales to deny recognition was what was called 
insufficient funds, which in this day and age, it seems to me 
that insufficient funds should not fly in the face of justice. 
We have funds to rebuild a nation in Iraq. It seems to me we 
ought to be able to find some funds.
    [Applause.]
    The Chairman. I might mention to the audience you are all 
certain welcome here, but I would ask you to keep the cheering, 
boos or anything else down to a minimum. We try to get through 
this as well as we can. I just mentioned that because I know we 
spend a lot of money on nation rebuilding.
    Does the BAR criteria include a requirement that the United 
States have sufficient funds?
    Ms. Martin. No; the BAR criteria simply sets out a 
regulatory process by which we recognize tribes.
    The Chairman. I see.
    Has the United States ever refused to recognize a newly 
independent state overseas or any foreign government because of 
insufficient funds? I will answer it for you. No. We have not. 
Has any other tribe that you know of been denied the process 
because of insufficient funds?
    Ms. Martin. No; not that I am aware of. I think the unique 
circumstance here is that the Lumbee are a very large tribe. We 
estimate their membership to be around 40,000 to 50,000.
    The Chairman. I even heard the number 55,000 a while ago. 
Along that line, do you have any kind of an estimate about what 
this would cost in terms of BIA, Indian Health Service, 
whatever, the Federal Government should provide if this bill 
was passed? Is there a ballpark figure of cost to the Federal 
Government?
    Ms. Martin. We were not able to pull those numbers together 
in time for today's hearing, but the sheer numbers that we are 
talking about would make the Lumbee the third largest tribe in 
the United States. In the past, we have loosely estimated the 
cost of trying to create a similar structure of services for 
the Lumbee at approximately 15 to 20 percent of then-existing 
budgets.
    The Chairman. Was that 15 to 20 percent of the existing 
budget?
    Ms. Martin. I do not have any documentation to support that 
at this time.
    The Chairman. Could you try to find some of that and 
provide it for the committee, some of those numbers?
    Ms. Martin. Yes, sir.
    The Chairman. The BIA position in 1956, the last time the 
solicitor weighed in, I understand that the solicitor did 
recommend some changes. Is that true, or do you know?
    Ms. Martin. To the 1956 act?
    The Chairman. Yes.
    Ms. Martin. Yes; actually, the language that has been at 
issue in almost every bill addressing the Lumbee was 
recommended by the Department of the Interior, and that is the 
final clause in the bill which prohibits the Lumbee from 
accessing services for Indians based on their status as 
Indians.
    The Chairman. Whenever we deal with a new tribe seeking 
recognition, we get into things you have touched on, 
jurisdiction, land in trust, membership. It is always difficult 
for a newly recognized tribe or even some that were terminated 
that we are trying to reestablish. Do you have any concerns 
dealing with rights granted under S. 420 to the Lumbee Tribe to 
take land into trust?
    You mentioned jurisdiction. I understand there could be a 
problem there.
    Ms. Martin. The bill confers that jurisdiction on the State 
and allows for the tribe to transfer, and the State to agree to 
transfer jurisdiction back to the tribe. But again, I think our 
concern would be with some of the other exercises of 
sovereignty that the tribe may want to undertake once it is 
recognized.
    The Chairman. And maybe last, I have heard numbers of 
40,000 up to 55,000 members. Does the Department have any 
comments on how they establish their base membership rule?
    Ms. Martin. At the present time, we do not have a current 
copy of the constitution or any of the documents that establish 
membership for the tribe. That would be something that we would 
have to get and look at through the verification process, which 
as I stated earlier, could take a significant amount of time.
    The Chairman. Okay. I thank you. I have no further 
questions, but Senator Inouye may, and if he does I am sure he 
will submit them in writing. If you could answer those, we 
would certainly appreciate it.
    Thank you for appearing today, Aurene.
    Ms. Martin. Thank you very much.
    The Chairman. We will now move to our only panel, that will 
be panel two, Milton Hunt, chairman of the Lumbee Tribe; Jack 
Campisi, the tribal historian of the Lumbee Tribe, North 
Carolina, who resides in New York; Arlinda Locklear, tribal 
attorney for the Lumbee; and Tim Martin, executive director of 
the United South and Eastern Tribes, Inc.
    We will proceed in that order. If you would like to submit 
your complete written testimony, that will be included in the 
record. If you would like to abbreviate your written testimony, 
that would be just fine.
    We will start with Chairman Hunt first.

    STATEMENT OF MILTON HUNT, CHAIRMAN, LUMBEE TRIBE, NORTH 
                            CAROLINA

    Mr.Hunt. Thank you, Mr. Chairman.
    I want to at this time ask you to enter this into the 
record.
    The Chairman. It will be included in the record.
    Mr. Hunt. I want to thank you for doing that. I want to 
thank the committee for hosting this today and giving us some 
opportunity to come here and talk to you about our efforts on 
Federal recognition for the Lumbee Tribe.
    I also want to thank Senator Dole, who introduced our 
legislation on the Senate side, and Congressman McIntyre on the 
House side, and Senator Edwards and all the other cosponsors we 
have on the House side.
    We certainly appreciate all the efforts that they have made 
on our behalf, and we look forward to working with them in the 
future. We certainly cherish their support.
    I want to start out by saying that we have heard the year 
1888 talked about here today a couple of times. I want to start 
back with that and talk about it. In 1888, Everette Sampson, 
along with other leaders in the Lumbee community, signed a 
petition and delivered it to Washington to ask for Federal 
recognition for our people. At that time, we were known as the 
Croatan Indians of Robeson County.
    We also asked for educational help, because in 1887 the 
Indian Normal School had been established. You must keep in 
mind from 1835 until 1885 in Robeson County, an Indian could 
not go to public school. We were barred from going to public 
schools. So we came out of a 50-year blackout period in 1885 
when the State recognized us. But they appropriated only enough 
money to fund teachers for 2 years. So that was the reason that 
this group of people came to Washington in 1888 to ask for 
help, not only for recognition, but for help in our schools.
    Those schools had been established to teach our kids and 
even young adults, who would then go out in the community and 
teach others to learn the basic skills. This was started with 
an appropriation from the State of $500, and teachers for 2 
years. The tribe donated the land. They also raised the 
additional part of the money to put the first building there. 
That is the beginning of UNCP, which is now a university campus 
with 4,800 enrolled students that are housed in Pembroke. That 
was the beginning of that university. It began as Indian Normal 
School to educate our Indian students that did not have an 
opportunity for 50 years to be educated.
    We have continuously been able to introduce, I have heard 
it talked about 14 bills being introduced over the years to 
have us recognized, but there have been nine studies. No study 
has ever been done that came back that said that we were not 
Indians. Every study is that. In the most demeaning study, 
which was the last one done, when they came into the 
communities in the 1930's and they measured their cheek bones 
and the separation in their eyes and so forth like that, that 
was a demeaning study that was done on our people, and a lot of 
our people did not participate in that.
    So we have studies with that done. We have been studied to 
death. It is time for action. We ask you to help us help 
ourselves. We need recognition for the Lumbee Tribe. It is very 
simple. In 1956 when the Act was passed, they gave it to us in 
one hand and they took it away in the other hand. I was a young 
fellow at that time. I can remember. Pembroke is the center of 
the Indian activity in Robeson County. It is a small town of 
about 3,000 people now, but in 1956 we had a parade and a 
festival to celebrate the gaining of Federal recognition, not 
knowing that it was being taken away from us at the same time. 
We were very, very upbeat at that time. Can you imagine what 
happened in the Indian community after that? It was a complete 
let-down. There may be people in this group here today that 
would attest to that.
    Everette Sampson was my great-grandfather. He was one of 
the 48 signers of the petition in 1888, along with his father 
William ahead of him. So a lot of our families have been 
involved. Many of these folks that are here today to show their 
support for Federal recognition, I am sure many of their 
families were involved in the signing and helping to get 
Federal recognition started. We certainly appreciate their 
efforts to come up here and support us at this today. We are 
doing everything that we know how to do.
    Like I said, we have been studied to death. We did 
everything that we know to do. The year 1956 was a turning 
point. You must remember that when Congress recognized us, then 
they took it away from us, they did another tribe the same way 
at the same time. Since then, the government has gone back and 
righted that wrong, and they have since given that other tribe 
their recognition. Don't you think it would be fair for us to 
be recognized the same way? That is all we are asking, for 
fairness. We want people to be fair.
    Our tribal government operates under a constitution now. We 
have three parts of government. The government is working for 
us and we are moving toward doing the things that we need to do 
to help our people. We want to continue down that road of 
helping to make sure that the Lumbees of Robeson and adjoining 
counties are taken care of and that their needs and their 
efforts are looked at and accepted. But we want to make sure 
that my grandchildren will not be up here 100 years from now 
and saying their grandfather came up here and talked about 
this. It is time that Federal recognition for Lumbees came to 
pass.
    So I would hope and pray that you would have it in your 
heart to help us make sure that this happens for the Lumbee 
Tribe.
    Thank you very much.
    [Prepared statement of Mr. Hunt appears in appendix.]
    The Chairman. Thank you.
    Some of us have it in our heart. We have to get it into 
everybody else's heart around this place.
    Normally, we hear from the whole panel before we ask 
questions, but Senator Cantwell is here, so I think I will just 
go ahead and start asking a few one-by-one so that she can also 
participate in case she has to leave.
    Chairman Hunt, let me start with a couple of questions for 
you. You mentioned you have been studied to death. It is a sad 
commentary, unfortunately, with the American government that 
sometimes they killed Indians to do the studies afterwards. You 
probably know that the history of the U.S. Government toward 
Indian people has not been, you might say, of a sterling 
character.
    You did mention another tribe where their status was taken 
away and then recognition was given back. I asked who that was? 
Tiwas in Texas. Yes, I am familiar with them. You mentioned 
that your youngsters for 50 years did not have the opportunity 
to attend any school, and that the State recognized the tribe 
in 1885. During that 50-year time, how did you educate your 
youngsters?
    Mr. Hunt. I think it was done basically on homesites. You 
had teachers, people that may have set up a little classroom. 
Basically, our people did not get educated. It is just that 
simple. We went through a 50-year blackout period when there 
was not must education.
    The Chairman. Do you have any idea what the tribal numbers 
were in those days?
    Mr. Hunt. I really don't, it being 100 years ago.
    The Chairman. I am always interested, very frankly, in 
Indian people, the difficulty they find themselves in now 
between modern-day types of teaching and traditional ways of 
teaching their cultural values. Do you know if during that 50-
year time or even later if the things that we consider 
traditional cultural values such as language and dance and song 
and music and all the stories and all that was kept alive?
    Mr. Hunt. As a matter of fact, I can trace back, the last 
speaker that we spoke our language. His name is Randall 
Locklear. He is from out of my family.
    The Chairman. That is a familiar name.
    Mr. Hunt. We can attest to him in the early 1900's. We have 
testimony to that fact, from some of his relatives.
    The Chairman. Are there any documents now that have records 
of what might be considered an original language?
    Mr. Hunt. I can't answer that. Arlinda will have that.
    Ms. Locklear. If I may, Mr. Chairman.
    The Chairman. Yes; please.
    Ms. Locklear. We were studied by a well-known linguist in 
the early 1940's, Vine Deloria's aunt, in fact, visited our 
community and is said to have recorded certain words of the 
original language of the Lumbee people.
    The Chairman. There were several linguistic groups in 
American Indians. What was it related to? Was it Siouan?
    Ms. Locklear. We are Siouan speaking.
    The Chairman. Siouan speaking.
    Ms. Locklear. Yes, sir.
    The Chairman. I understand from your testimony, your tribe 
currently has a membership roll, and I have heard this number 
from 40,000 to 55,000. How many members are there on the roll?
    Mr. Hunt. Enrolled 54,000.
    The Chairman. 54,000. And what is your criteria? Some 
tribes have lineal descendancy; some have blood quantum. There 
are a number of other ways.
    Mr. Hunt. We have a source document requirement and a 
contact requirement.
    The Chairman. Would you explain that to the committee? A 
source document, what does that mean?
    Ms. Locklear. If I may, Mr. Chairman?
    The Chairman. Yes; go ahead.
    Ms. Locklear. There are two basic membership requirements. 
The source documents that the Chairman refers to consist of a 
set of documents around the period of 1900 which identifies 
partial lists of our members at that time. These include 
Federal Indian census records and school records which are 
known by our community as the Blood Committee records. These 
committees were vested under State law with the authority to 
determine the eligibility of children to enroll in all Lumbee 
schools. They maintained records for that purpose. Those, plus 
church records, because most of our churches are 100 percent 
Indian.
    Those documents are the base documents from which an 
individual must prove descent to apply for membership.
    The Chairman. So it is a little like the Cherokees, if they 
prove descent it is not based on blood quantum, then. They just 
have to prove descent?
    Ms. Locklear. There is an additional requirement. We do not 
have a blood quantum requirement because blood quantum records 
have never been maintained on our people. However, there is a 
tribal contact requirement. As that, as translated in our 
community, basically means an individual who applies must be 
known to the community. His or her family must be in the 
community and be known to the tribe or else that person is not 
allowed to enroll.
    The Chairman. Wilma Mankiller of the Cherokees told me a 
few years ago when she was chairman they were getting 1,400 
requests per month for enrollment with the Cherokees from 
people in Canada and Alaska and South America and everywhere 
else. Do you have that problem?
    Ms. Locklear. We have had similar problems. Yes, Mr. 
Chairman, there is a group in California that purports to sell 
Lumbee Nation membership cards and they are not authentic.
    The Chairman. Yes; back to the chairman, and since you 
already chimed in Arlinda, you might wish to again, would you 
be agreeable to having the BIA consult with you in clarifying 
your membership criteria and researching those who might be 
eligible for membership?
    Mr. Hunt. I always turn to Arlinda and ask her.
    The Chairman. Okay, let's turn to Arlinda.
    Ms. Locklear. There is one fundamental rule that would be 
very important to us, Mr. Chairman, and that is as with all 
tribes we would expect to have our right to determine our own 
membership criteria respected by the Department. Given that 
rule, however, we would be happy to work with the Department of 
the Interior to establish a process for the Department to 
verify that those individuals who are enrolled actually meet 
the tribe's membership criteria.
    The Chairman. I am told that the Lumbees are descended from 
the Cheraw Indians, but at one time it appeared that they were 
related somehow to the Cherokees or the Croatans, and I am not 
even familiar with that tribe. When did that change, or what is 
the connection now between these other groups?
    Ms. Locklear. Those were designations under State law, Mr. 
Chairman. Those were not names that the tribe itself adopted. 
The tribe was first recognized by the State in 1885 by the name 
of the Croatan Tribe. That was changed in 1913 to the Cherokees 
of Robeson County. The tribe itself was dissatisfied with that 
name and sought a name change. A referendum was held in 1952 
among the Lumbees, and for the first time the tribe itself 
indicated to the State that it wanted the name ``Lumbee'' to be 
adopted. As a result in 1953, legislation to do that was 
enacted by the State.
    The Chairman. Most tribes, they don't call themselves what 
everybody else calls them, as you know.
    Ms. Locklear. That is correct.
    The Chairman. In the other world, they call them the Sioux, 
but the Sioux people all themselves Lakota, as you know. Our 
people call themselves Sisitas, not the Cheyenne. Is ``Lumbee'' 
a name that is from a tribal reference?
    Ms. Locklear. The simplest way to refer to that is to point 
to the picture here. This is a picture of the Lumber River 
where our people have always resided.
    The Chairman. The Lumber River.
    Ms. Locklear. The Lumber River. The name ``Lumbee'' is 
derived from that. In early colonial records, the Lumber River 
was known as Drowning Creek. It was changed by State law in 
1807 to the Lumber River. The earliest documentation of the 
Cheraw Tribe shows them residing on Drowning Creek where the 
Lumbee people still reside today under the name ``Lumbee.''
    The Chairman. Do the Lumbee have a word in their own 
language for themselves, like with some tribes? If you 
interpret what they call themselves to English, like the Dinae 
for Navajo, it means ``the people.'' Is there a word for that 
in Lumbee?
    Ms. Locklear. We have no surviving language. Unfortunately, 
we have lost those words.
    The Chairman. I understand. Unfortunately, a lot of other 
tribes have, too, as you probably know.
    The Lumbees adopted a constitution in November 2001, just 2 
years ago, and yet apparently they have been operating as some 
kind of a political unit. Why so late in adopting a 
constitution?
    Go ahead, Mr. Chairman.
    Mr. Hunt. I will have to give you a long answer to that, 
Mr. Chairman.
    The Chairman. Can you do that in short sentences? 
[Laughter.]
    Mr. Hunt. That came about through several methods. We had 
an organization that represented Lumbees for about 30 years. 
The new tribal government was formed by a commission and a 
referendum of the people in 2000. We had an election of all our 
people, and elected a new tribal government. I am the first 
elected chairperson of that committee.
    It was just a long time coming.
    The Chairman. In that tribal constitution, you have an 
independent court, as most tribes do.
    Mr. Hunt. We do. We have three branches of government, 
legislative and executive and judicial branch. We do.
    The Chairman. I see. Let me move on a little bit. We know 
the BAR process is really complicated, and in some cases takes 
years to get through it. Earlier you heard me say we have got 
to change the BAR process or go around it somehow. We have to 
do something about it. We know that. If the BAR process was 
made available to the Lumbees, would you be supportive of 
seeking recognition through that route, or have you kind of 
given up on them?
    Mr. Hunt. Arlinda.
    Ms. Locklear. It is more the latter, Mr. Chairman. We have 
had this experience with the Department of Interior for more 
than 100 years now, and I dare say that this tribe would be 
recognized today had it not been for the Department's 
longstanding opposition to recognition of the tribe.
    Recently, the Department has even changed its position with 
regard to the ancestry of the Lumbee people. In 1934, the 
Department testified to Congress that the Lumbee people were 
indeed Cheraw Indians. Now, the Department will say there needs 
to be more documentation on that point. It seems to us it is a 
never-ending game of paper-chase with the Department and one 
that the tribe is not prepared to engage in any longer.
    The Chairman. I see. If you were provided recognition of, 
let's take the higher number I have heard today, of 55,000 
people, what types of services provided by the Bureau or the 
IHS would you pursue? What is the most important to the tribal 
community?
    Mr. Hunt. We are receiving some services now, particularly 
housing.
    The Chairman. From the Federal Government?
    Mr. Hunt. Yes; we are. My policy on that, and I think I can 
speak for the Council is, we would not want to be eligible for 
any less than any other tribe would be.
    The Chairman. Do you want a casino?
    Mr. Hunt. That is not a problem with us right now. That is 
not an issue. We started this journey 100 years before 
legislation.
    The Chairman. It is not a problem with me either, because I 
happen to support Indian gaming.
    Mr. Hunt. Yes; That came about in 1988. That was exactly 
100 years after we started our journey for Federal recognition. 
So that is not an issue at this time for us.
    The Chairman. Okay. I think I will yield to Senator 
Cantwell if she has some questions before we go on to our next 
witness.
    Senator Cantwell. Thank you, Mr. Chairman. You may have 
asked this prior, but it seems like a large attendance here 
today.
    The Chairman. Yes; we introduced them and most of them have 
come from North Carolina, braving the impending storm, to be 
her for this hearing. A lot of them are members of the Lumbee 
Tribe.
    Senator Cantwell. Well, I hope you find safe harbor here in 
Washington.
    I have a couple of questions. Dr. Campisi.
    The Chairman. The only one who has testified so far is 
Chairman Hunt.
    Senator Cantwell. Okay. Is it okay to ask questions of the 
rest of the panel?
    The Chairman. Would you prefer to hear them first? What is 
your time?
    Senator Cantwell. For time, it would be good if I could.
    The Chairman. Okay.
    Senator Cantwell. I have already had an opportunity to read 
their written testimony.
    The Chairman. Okay. Why don't you go ahead and then I will 
take testimony from them after and ask some of my questions 
after you do.
    Senator Cantwell. Okay.
    I was struck by your statement that you said that out of 28 
tribal petitions for Federal acknowledgement that you have 
worked on, none have exceeded the Lumbee petition in 
documentation and evidence, from the perspective of a cohesive 
political community, as well as the amount of information that 
can be documented. So I wondered if you could elaborate on your 
statement, juxtaposed to some of the other tribes that are 
seeking recognition.
    Mr. Campisi. I have worked with the Lumbee for 20 years 
now. There is an incredible amount of paper documentation on 
issues that relate to a community, issues that relate to 
political continuity. There is an enormous amount of 
documentation relating to the kinship system, to the 
membership. And in that 20 years of work, I visited many of 
their churches. I went to many of their social events. I 
attended many civic events, tribal events. I am struck by the 
cohesiveness of the community.
    I did not find, as I have found in other communities, sharp 
factional divisions as one might expect or sometimes do find. I 
found differences of opinion, certainly, and that is a healthy 
thing, but I never found a group anywhere near as large who had 
such a sense of self, such a sense of direction, and such an 
understanding of who they are and who others are. That is to 
what I was referring.
    Senator Cantwell. The BIA testimony there is a process in 
sequential logic that is if Congress wants to take action to 
deal with the 1956 act that we could do that. To make sure that 
that had good legal standing, one of the principles that we 
would have to address is the historical continuity of a unified 
community under that one leadership and government. So as a 
historian looking at 28 tribes that are seeking a similar 
process, you have no concern about our ability to do that?
    Mr. Campisi. None at all. I think the tie to the Eastern 
Siouan tribes is clear. I think the connection to the Cheraw is 
compelling. I think the work done by John Swanton in the 1930's 
and the research continued by Bill Sturtevant, Jim Merrill, and 
Ray Fogelson, three eminent researchers, scholars, all confirm 
what Swanton came up with in the 1930's. We have more data now 
available to us than Swanton did. So I do not see any 
legitimate argument against the argument of dissent from 
Eastern Siouan Tribes, particularly the Cheraw.
    Senator Cantwell. And how would you compare that to other 
tribes that already have recognition?
    Mr. Campisi. It is different in the sense that, there is a 
lot of serendipity operating. Some tribes were passed over; 
other tribes formed treaties with the United States because of 
something they had. I look at some of the Northeastern tribes 
that I have worked with, and I think the argument of the 
Lumbees is as compelling as those arguments are, that both 
Congress and the Department of the Interior have recognized.
    Senator Cantwell. So you would say that they have as much 
historical data and context as some already recognized tribes, 
and maybe even more than some that have been recognized?
    Mr. Campisi. I would say so.
    Senator Cantwell. So again, my point being that if Congress 
chose to act dealing with the 1956 act we should not be 
concerned about our historical findings as a precedent to move 
forward.
    Mr. Campisi. You should not be concerned. I agree.
    Senator Cantwell. Chairman Hunt, I was curious also, the 
criteria that is listed for recognition. Have you seen that 
list of criteria of the BIA?
    Mr. Hunt. Yes; I have.
    Senator Cantwell. There are a variety of criteria here, 
such as, demonstrating the political influence of authority, 
providing a copy of the governing documents. You believe that 
you are in conjunction with those criteria? There are seven.
    Mr. Hunt. Yes; I do.
    Senator Cantwell. So again, it seems to me that we are back 
to this 1956 act and that what Senator Dole is trying to do is 
address the fact that we are caught in this cohesiveness of 
having met the criteria, having the historical context, but 
having a previous law on the books that is prohibiting us from 
moving forward.
    Mr. Hunt. I think that is true.
    Senator Cantwell. So then it is a question of whether we 
have the will to address that inconsistency that is in the 1956 
act.
    Mr. Hunt. I hope we have the will and the way.
    Senator Cantwell. I want to turn to Mr. Martin, if I could, 
because Mr. Martin I understand that you represent the United 
South and Eastern Tribes, and have in the past had some written 
testimony submitted to this committee in favor of special 
recognition, but now you, or some of the members, are in 
opposition. I am trying to understand what the official 
position is of the United South and Eastern Tribes.
    Mr. Martin. As clarified in my testimony if you have read 
that, is the latest resolution that you said did pass, and you 
said being the intertribal organization representing 24 
federally recognized tribes, we traditionally have supported 
any Indian group that is going through the Federal 
acknowledgement process. We have a longstanding opposition to 
any tribe that wishes to circumvent that system and be 
recognized legislatively.
    Senator Cantwell. Do you think that the Lumbee meet the 
criteria that are outlined in the current Federal law for 
recognition?
    Mr. Martin. I am not an expert in that area to determine 
whether they meet that criteria or not. That is the reason we 
believe that every Indian group should go through the Federal 
acknowledgement process. The Bureau of Indian Affairs in the 
infinite wisdom of Congress realized that Federal recognition 
is a complex and tedious process that should not be entered 
into lightly. So therefore in the wisdom of Congress, they 
deferred that to the BIA within the Department of the Interior, 
who employ the experts that need to review and analyze that 
comprehensive information.
    I am certainly encouraged by the representatives of the 
Lumbees of North Carolina that they believe that they can meet 
that criteria. If that is the case, then we, as our testimony 
says, we should amend the bar that prohibits them from going 
through the administrative process. Let the information that 
they say exists to be reviewed by the experts so that they 
could be, if reviewed by those experts and giving a positive 
determination, to be welcomed open-arms by the other federally 
recognized Indian tribes of this country.
    Senator Cantwell. So you do not think that the 1956 act 
that basically said that nothing in this act should make them 
eligible for services shouldn't be the lone determinant in 
deciding whether they should get recognition?
    Mr. Martin. No, ma'am; I think that as far as that, they 
should go through the process and meet the criteria just as my 
tribe has, and I can speak from that personally. I am a member 
of the Poarch Band of Creek Indians. My tribe went through the 
process. It took in excess of 20 years for us to go through 
that process. I cannot in good conscience sit here and say that 
I should say a tribe just should take their word for it and 
artificially bestow such a prestigious honor on that tribe as 
Federal recognition in there. We went through the process. We 
believe every tribe should go through that process.
    I am encouraged by their statements today that they believe 
that they can meet that criteria.
    Senator Cantwell. But did you have a previous law on the 
books that had been a roadblock to allowing those criteria to 
be judged in your favor?
    Mr. Martin. No, ma'am.
    Senator Cantwell. So that seems to be one of the 
distinguishing differences here is that perhaps this 1956 law, 
or at least if I read the BIA testimony correctly, they are 
saying here is the information, but you have this little 
stumbling block, Congress. You have something that is 
prohibiting this that you put on the books in 1956. I am not 
100 percent clear why that was put on the books, but it seems 
like BIA has to deal with that inconsistency. I am glad to hear 
you say that they should be judged on that criteria because my 
guess is they probably do meet the rest of the criteria. It is 
only this inconsistency in the previous law that we have to 
resolve.
    Mr. Martin. Yes, ma'am; as my testimony indicates, a House 
bill has been introduced. I think it is House bill H.R. 1408 
that would correct that administrative procedure that bars them 
from going through the administrative procedures for Federal 
recognition. Our tribes are in support of that correction so 
that they can then avail themselves to the BAR process and go 
through that process and be judged and determined. Our tribes 
do not believe we should say if they are Indian or not. That is 
something that is ultimately left up to the Federal Government.
    Senator Cantwell. Thank you.
    The Chairman. Would you yield for 1 moment?
    Senator Cantwell. Yes; thank you.
    The Chairman. I am going to skip around and come back to 
your testimony. I am sorry we kind of got a little bit astray.
    Mr. Martin, you said, let me speak about a couple of tribes 
that did get land claims, and I understand recognition came 
with some of the land claims. That included the Alabama 
Coushatta, the Catawba, the Houlton Band of Maliseets and 
Mashantucket Pequot, the Narragansetts, the Passamaquoddy, and 
the Penobscot. So I understand all those did not go through the 
BAR process, but were a land claim that was passed by Congress, 
but also got recognition in the process.
    My question is, did USET support any of those or oppose any 
of those, or are you familiar with that?
    Mr. Martin. I am not familiar with whether we took official 
stances on those. It has always been our longstanding position 
that a petitioning tribe should go through the Federal 
recognition process.
    The Chairman. I see. Okay. Thanks.
    Did you have any further questions?
    Senator Cantwell. No, Mr. Chairman; I just wanted to wish 
everyone here both good luck with the Isabel storm coming, and 
this process.
    The Chairman. We will try to move along here so you can get 
out before it hits.
    Senator Cantwell. Hopefully we can resolve these last of 
the issues and let the facts lay on the table so that this 
process can take place.
    Thank you.
    The Chairman. Why don't we go back now to any comments that 
the panel would like to make. If you would like to abbreviate, 
we will go ahead with Dr. Campisi. If you have already made 
some of them in answers to other questions, you can skip those.
    Mr. Campisi. Yes; I have. I will skip those parts.
    The Chairman. Good.

 STATEMENT OF JACK CAMPISI, TRIBAL HISTORIAN, LUMBEE TRIBE OF 
                         NORTH CAROLINA

    Mr. Campisi. Mr. Chairman and members of the committee, I 
would like to thank the committee for giving me this 
opportunity to address the committee on this important 
legislation. My name is Dr. Jack Campisi. I have been a member 
of the Anthropology Department at the State University of New 
York, and most recently on the faculty of Wellesley College in 
Massachusetts.
    Since the publication of the Federal acknowledgement 
regulations in 1978, I have worked with 28 tribes on their 
petitions. I conducted historical and field research with the 
Lumbees for nearly 20 years.
    In my testimony today, I will describe the basis of my 
professional opinion that the Lumbee Tribe in North Carolina 
meets all but one of the seven criteria specified for Federal 
acknowledgment in 25 CFR 83, and in S. 297. A previous speaker 
has outlined the criteria. There is no need for me to go 
through that. Let me say that there is ample evidence in 
Federal, State, church, local, school records, newspapers, 
anthropological and historical publications to demonstrate that 
the Lumbees meet criterion A.
    For criterion D there is a written constitution, and before 
that we have detailed descriptions of the decisionmaking 
process. There is no evidence that any of the present members 
of the Lumbee Tribe are members of any federally recognized 
tribe. That is criterion F. That leaves four criteria: D, 
community; C, political; E, tribal origins; and G, 
congressional termination.
    On community, the regulations provide that this criterion 
can be met by demonstrating that more than 50 percent of the 
tribe's members reside in an area nearly exclusively. The 
regulations also provide that this criterion can be met if more 
than 50 percent of the tribe's married members are married to 
other tribal members.
    In 2002, I conducted a systematic sampling of the tribal 
membership following a methodology used by the Branch of 
Acknowledgment and Research in another case. I drew a random 
sample of 1 percent from the tribal roll, a total of 514 names. 
This correlated closely with the number of tribal members. I 
found that 65 percent lived in the core areas in Robeson 
County, Pembroke, Maxton, Rowland, Lumberton, Fairmont, St. 
Pauls, and Red Springs.
    The Chairman. Did you do those studies on-site?
    Mr. Campisi. Yes.
    As to marriages, 70 percent of those who are married are 
married to another Lumbee tribal member.
    Two points are important to mention in this regard. If the 
70 percent of the tribal members are married to each other, it 
stands to reason that at least this percentage was maintained 
in the past. This is borne out by analysis of past Federal 
censuses going back at least to 1850. Prior to 1850, you do not 
have the name of the spouse, so it makes it more difficult.
    Second, under the regulations, if the petitioner meets the 
high standard for any time period under criterion B, the 
petitioner also meets the requirement for criterion C, 
political, for the same time period.
    As to the political, criterion C, even though the Lumbee 
Tribe can demonstrate high evidence under criterion B 
throughout its history and thereby satisfy this criterion, it 
can also demonstrate continuous political authority. For 
example, in 1885 the tribe was successful in getting the State 
of North Carolina to recognize them and permit them to 
establish their own school system, this, after their refusal to 
send their children to segregated schools.
    This picture here, number 2, is Aaron Locklear, identified 
as a Croatan Indian in this photo from the Smithsonian 
archives. Aaron Locklear was an influential leader in the early 
1900's
    Picture number 3 is a picture that shows Anderson Locklear 
School in 1910. Anderson Locklear was a highly respected 
educator and religious leader. Locklear Hall on the campus of 
the University of North Carolina-Pembroke is named for him.
    The Chairman. Is that a grandfather or great-grandfather of 
you, Arlinda? Which one? Great-grandfather?
    Ms. Locklear. Not direct lineal, but collateral.
    The Chairman. Yes.
    Mr. Campisi. Photo number 4. In order to teach their 
children, the tribe needed a teacher's training school. This 
photo shows a class at that school, the Normal school which 
later became part of the University of North Carolina-Pembroke. 
This photo shows a class. In it, it contains a petitioner from 
the 1887-88 State petitions.
    The Chairman. It looks like a typical Bureau school. They 
cut all their hair first thing, didn't they.
    Mr. Campisi. Yes; that is right.
    Education is a primary tribal cultural value; 19th-century 
demands for schooling outstripped the resources available. This 
caused the tribal leaders to appeal for support to Congress. As 
stated, no less than nine studies or attempts were made in 
requests by Congress for information. These continued from the 
late 1890's to the 1930's. All reported the existence of a 
Lumbee Tribe.
    In 1936 at the direction of Felix Cohen and Dr. Carl 
Seltzer of Harvard conducted a study under the provisions of 
the Indian Reorganization Act. Dr. Seltzer collected physical 
and ethnographic data on 209 tribal members and found 22 met 
the half-blood standard. I do not condone Dr. Seltzer's 
physical anthropological technique. It is outmoded and stupid. 
But the important part of that is, this photo is of Duncan 
Locklear who informed Dr. Seltzer that according to his 
grandmother, the last tribal member who spoke the native 
language died in the 1890's. Duncan Locklear's grandfather was 
Allen Lowrie, a signer of the 1888 petition.
    The State of North Carolina has continuously recognized the 
Lumbee Tribe, although under different names. In 1953, the 
Lumbees held a referendum on their present name, which they 
approved by an overwhelming majority.
    Number 6. Finally, this is a scene of the Lumber River, 
which until 1807 was called Drowning Creek. This is an area 
where the majority of the Lumbee members live today. It is the 
same area that the Cheraw Indians were located on in the 18th 
century. In 1934, the Department of the Interior asked Dr. John 
Swanton, ethnologist at the Bureau of American Ethnology and 
leading authority on Southern Indian tribes, determined the 
tribal origins of the Indians of Robeson County. Dr. Swanton 
expressed his professional opinion that the Lumbee Indians were 
of Eastern Siouan tribal origins, and particularly Cheraw.
    This opinion was accepted by the Department of the Interior 
and reported to Congress in 1934, along with a copy of Dr. 
Swanton's report. After reviewing the data available, Swanton's 
findings have been supported by such eminent scholars as Dr. 
William C. Sturtevant, Curator of Ethnology at the Smithsonian 
Institution and General Editor of the Handbook on North 
American Indians, by Dr. James Merrill of Vassar College, 
historian and specialist on Indians in the Carolinas.
    The Chairman. Dr. Campisi, this is a lot of material in the 
records here. Was all this used when North Carolina decided to 
grant State recognition of this tribe?
    Mr. Campisi. No.
    The Chairman. It was not?
    Mr. Campisi. It was not available.
    The Chairman. Is it available now?
    Mr. Campisi. It is available now.
    The Chairman. Can our committee staff get a copy of that or 
review it or see that?
    Mr. Campisi. Absolutely.
    The Chairman. Thank you.
    Mr. Campisi. By Dr. Raymond Fogelson, anthropologist at the 
University of Chicago and specialist on Cherokee ethnology, and 
by myself.
    In conclusion, the evidence I have reviewed and presented 
in my written statement and summarize today convinced me that 
the Lumbee Tribe satisfies the first six of the seven criteria. 
However, it does not satisfy criterion G, congressional 
termination. In view of the long history of the Lumbee Tribe's 
efforts to achieve Federal recognition and the actions of 
Congress with regard to the 1956 legislation, S. 420 is the 
appropriate remedy, in my mind.
    Thank you.
    The Chairman. Thank you, Dr. Campisi. Your dedication to 
Indian Country and the long history that you have provided on 
many occasions is well known to Indian people. You have been 
involved in 28 BAR applications, is that correct, as I 
understand it?
    Mr. Campisi. That is correct.
    The Chairman. How many of those were successful in their 
bids?
    Mr. Campisi. Let's see. There was Gay Head, Wampanoags.
    The Chairman. Are you at least batting 500?
    Mr. Campisi. I would be batting 500 if they ever got around 
to completing them. I would be better than 500 if they really 
followed the regulations as I think they ought to.
    The Chairman. You heard me ask earlier of the chairman that 
as I understand it their governing document, their 
constitution, was not adopted until just a couple of years ago. 
Maybe I should have asked the chairman. Did they have any 
document that they operated under before that?
    Mr. Campisi. Not as such, but that is an excellent 
question. They operated in a community sense through a network 
of kinship and a network of religious organizations, and formed 
consensus through these two.
    The Chairman. But it was a system of governance of some 
sort?
    Mr. Campisi. Absolutely. It was a clear system of 
governance. In fact, the constitution convention originated 
through the churches.
    The Chairman. Do you know if there are any records of that 
form of governance, the meetings they had or things of that 
nature? Were there notes taken?
    Mr. Campisi. Yes; there are records of meetings. There are 
records of groups getting together for specific purposes, 
specifically, for example, in the 1930's. There are records of 
meetings in the 19-teens.
    The Chairman. Did you have an opportunity to review those 
records or see them?
    Mr. Campisi. Yes; I have.
    The Chairman. Okay. And if you could also provide those for 
the committee, we would appreciate that, too.
    Mr. Campisi. We certainly will.
    The Chairman. Thank you for your appearance.
    [Prepared statement of Mr. Campisi appears in appendix.]
    And now we will move to Ms. Locklear. Anything you have 
already said once or twice, you do not need to repeat again for 
me.
    Ms. Locklear. I appreciate that. I will keep my remarks 
brief. I think the committee has covered a lot of material 
today.

STATEMENT OF ARLINDA LOCKLEAR, ESQUIRE, TRIBAL ATTORNEY, LUMBEE 
                     TRIBE, NORTH CAROLINA

    Ms. Locklear. Let me begin by saying once again how pleased 
the Lumbee Tribe is to have the opportunity to make our case to 
the committee, and how gratified we are by the overwhelming 
support and hard work of our sponsors that have gotten us here 
today. That is Senator Dole, she has earned our everlasting 
gratitude; Senator Edwards and Congressman McIntyre.
    Also, a particular thanks to Delegate Faleomavaega. He has 
been a long-time friend of the Lumbee people. As the chairman 
yourself indicated earlier, he has not failed. He has helped us 
succeed. Had it not been for his efforts and others like his, 
we would no be here today. So we say ``thank you'' to them.
    The Chairman. He is a good one.
    Ms. Locklear. He is a good man.
    I will keep my remarks brief. We have written testimony 
that the chairman has already accepted into the record.
    The Chairman. Yes; we will read that copiously.
    Ms. Locklear. Probably the most effective thing I could do 
at this point is to address some concerns that the chairman has 
raised with other witnesses, to try to clarify the position of 
the tribe with respect to other tribes and historically.
    First of all, with respect to the uniqueness of the Lumbee 
Tribe, that cannot be overstated. The committee has already 
heard today that it is the largest non-federally recognized 
tribe in the country. It has probably the largest documented 
legislative and administrative record of any tribe in this 
country. If you compile, as we have, the legislative history of 
all of the hearings that have been held on this tribe's history 
since 1899, as well as the nine studies that the Chairman 
referred to, you have literally hundreds of pages of testimony 
and documentation with regard to the history, ancestry and 
community of the Lumbee Tribe. I dare say that these pages 
compare admirably to the extent of work that was done on Poarch 
Creek and other tribes that have gone through the 
administrative process.
    In particular with regard to Poarch Creek, I think it is 
important to observe for the committee that we were pleased to 
have the support of the chairman of the Poarch Creek Tribe in 
1988 who in a letter to this committee specifically noted that 
the Lumbee has a unique set of circumstances that does justify 
special legislation for the Lumbee Tribe, even though USET has 
repeatedly indicated its support for the administrative process 
for other tribes.
    There is one final circumstance, of course, which hovers 
above all the rest of these, and that is the 1956 Lumbee Act. 
It is important to place that act in its context. The Lumbee 
people, as other witnesses have testified, had been at this 
task since 1888. There was a pattern to these bills, the nine 
or so bills that were introduced in Congress between 1899 and 
1956. This is the pattern.
    Every occasion that the State of North Carolina amended its 
law to recognize the tribe under a particular name or for a 
particular purpose, the tribal leadership came to its 
congressional delegation and sought an act of Congress to 
recognize the tribe on the same terms that the State had 
recently done so. You see this with the 1899 statute, which 
followed on the heels of the 1885 State statute. You see it 
with the 1911, 1913 statutes which followed immediately on the 
heels of State recognition under different names. You also see 
it in 1956 with the Lumbee Act.
    The State of North Carolina had just 2 years before 
recognize the tribe under the name of Lumbee, which was the 
first time the tribe itself had asserted that this is the name 
we choose to be known by, the place where we have always 
resided. After that act, then the tribal leadership came to 
Congress with the exact same language, the exact bill that had 
been passed by the State of North Carolina, and asked its 
delegation to obtain Federal recognition upon the exact same 
terms. That bill was introduced, but again at the request of 
the Department of the Interior, who once again objected to 
recognition of the tribe, it was amended in the Senate to 
include the termination language.
    So what began as one more effort for recognition by the 
tribe, ended in termination by the tribe at the hands of the 
Department of the Interior.
    As the chairman has testified, the tribe nonetheless 
thought it had been recognized in 1956. The streets of Pembroke 
were closed for celebration. There was a parade through town 
that many of our elders today remember clearly. It was a joyous 
day for us. And it was only with the passage of time over a few 
years that we began to realize that once again we had been 
tricked. That happened conclusively in the early 1970's.
    As you have heard, the tribe had operated its own school 
system under the law of North Carolina since 1885. By court 
order in the early 1970s, the State of North Carolina was 
obliged to desegregate its schools. The Lumbee Tribe thought 
our schools were exempt. We were a recognized Indian tribe, 
after all. It was only when Lumbee parents were arrested and 
charged with truancy for refusing to allow their children to be 
bussed and to be up their own separate school system that a 
Federal judge told the tribe, you are not federally recognized, 
and because of that you are not allowed by law to maintain your 
own school system. It must be dismantled. We lost it. And that 
is when our modern effort to achieve Federal recognition began 
again.
    Those are the unique circumstances, we believe, that 
justify Congress taking the act of acting completely, 
completing what it started in 1956 with the partial 
recognition, finishing that act, and recognizing the tribe 
fully.
    As other witnesses have testified, there has only been one 
other tribe in the history of Federal Indian policy that has 
been in this precise circumstance. That was what was formerly 
known as the Tiwas of Texas. In 1968, this tribe, which had 
been long-recognized by the State of Texas, came to the 
Congress with its own recognition bill. That bill was amended 
to include the same termination language that appeared in the 
1956 Lumbee Act. In fact, the legislative history of the 1968 
Tiwa Act says specifically that that Act was modeled upon the 
1956 Lumbee Act.
    The Tiwas were not happy with that situation either. It was 
done at the height of termination policy and eventually 
Congress righted that wrong. In 1987, the Congress passed the 
Ysleta del Sur Restoration Act, which extended full Federal 
recognition to the Ysleta del Sur Pueblo, formerly known as the 
Tiwas of Texas.
    I would like to observe also that there was no opposition 
to that recognition Act by USET or many other tribes, even 
though they now profess to have great regard for the 
administrative process. The administrative process existed at 
that time. Congress in its wisdom understood that a wrong had 
been done to the Tiwas of Texas and righted it. For the same 
reason, Congress needs to realize that the Lumbees have 
suffered as second-class Indians since 1956. Congress put the 
Lumbees in that position and Congress should take it out, as it 
did with the Ysleta del Sur and extend full Federal 
recognition.
    If I may, in summary, refer the committee to some of the 
major terms of the proposed bill that Senator Dole has 
introduced, and address a few of the concerns that have been 
raised by some of the witnesses so far.
    First of all, the Act does, as it should appropriately, 
present itself as an amendment to the 1956 Lumbee Act. It 
would, as did the 1987 Ysleta del Sur statute, extend full 
Federal recognition to the Lumbee Tribe; no more half-measures, 
but full Federal recognition. Second, it also bestows civil and 
criminal jurisdiction on the State of North Carolina, subject 
to a change in that situation should the tribe, the State and 
the United States agree to do so on a negotiated basis.
    This is important because it recognizes the longstanding 
relationship that the tribe has had with the State of North 
Carolina. It is also important because we fear, given the size 
and concentration of the Lumbee community, that were it not for 
that provision, there may be a lapse of jurisdiction for some 
period of time. So that provision is important to us.
    Those are the key provisions. Some question has been 
raised, however, with regard to land acquisition provisions. 
Let me say a few words in response to those concerns.
    It is not the intent of these bills to establish a 
reservation per se. There is language in the bill that refers 
to reservation boundaries, but for the purposes of the delivery 
of Federal Indian services. As the chairman knows, many of 
those services are tied to the location of reservation 
boundaries. As part of the effort to ensure that Lumbees are 
not again the subject of one-half measure, we put language in 
the bill to make sure that the Lumbees are eligible for those 
services, even though a formal reservation may not exist.
    It is also important to point out that because of those 
differences, the absence of a formal reservation, the extension 
of State civil and criminal jurisdiction to the tribe, it is 
not fair for cost purposes to compare this tribe to other 
tribes in a similar situation.
    I think Ms. Martin for the Bureau testified that there may 
be a 15- to 20-percent participation by the Lumbee Tribe in the 
existing BIA budget were they recognized. We think that is not 
an accurate figure at all for a number of reasons. First of 
all, as I indicated, the Lumbee Tribe because of the State 
civil and criminal jurisdiction and because of the absence of a 
formal reservation, would simply not participate in a number of 
the Federal Bureau of Indian Affairs programs that are geared 
for those purpose. Law enforcement programs, trust 
responsibility programs would simply not apply, and therefore 
those costs would not obtain or attach to this bill.
    Second, Ms. Martin's testimony does not take into account 
the fact that the Lumbee Tribe presently participate in a 
number of the programs that she is concerned about. By virtue 
of the tribe's State recognition, the tribe already 
participates in the HUD Indian Housing Program. The tribe 
already participates in a number of Department of Labor 
program, and the tribe already participates in the LEHAP, or 
Low Energy Housing Assistance Program.
    Those are costs that are presently being borne by the 
United States Congress in the appropriations for Indian people, 
so that would not be an added item that would come about as a 
result of this bill. We think for those reasons the 15 to 20 
percent estimate is a gross exaggeration of the additional 
costs that the Congress would bear because of this bill.
    In sum, Mr. Chairman, I think you have heard today some 
eloquent testimony from our leadership. You have seen our 
people here. You have sensed the excitement that they feel. We 
really think that the time has come. We have been here long 
enough. We have been studied enough times. The Congress knows 
us. The Department of the Interior knows us. We urge the 
committee to act favorably as soon as possible on Senator 
Dole's bill.
    Thank you.
    [Prepared statement of Ms. Locklear appears in appendix.]
    The Chairman. Thank you, Arlinda. You are a fine speaker 
for the tribe. Let me ask you just a couple of quick questions.
    You are going to have to deal with land into trust at some 
point. Is there a location now that the tribe wants as a land 
base?
    Ms. Locklear. There has not been a tribal decision made on 
that issue. There are areas that obviously suggest themselves. 
As I indicated, the tribe currently receives Indian Housing 
Program. There are Indian housing units.
    The Chairman. But there are no areas designated that you 
would like to get as a land base?
    Ms. Locklear. Not at this point.
    The Chairman. Okay. And maybe the last question, you said 
that the linguistic group of the Lumbees was Siouan.
    Ms. Locklear. Yes.
    The Chairman. Was that also the same linguistic group as 
the Cheraw?
    Ms. Locklear. Yes; the Cheraw were Siouan speakers.
    The Chairman. I think that is all I need to ask you. Oh, 
maybe one last question. This number of 40,000 to 55,000 I have 
heard, what is it? Where is the number of enrolled people?
    Ms. Locklear. The chairman is correct when he testified 
that we have 53,000 enrolled members.
    The Chairman. 53,000. A large group.
    Ms. Locklear. Let me say that have an ongoing process to 
cull from that record deceased members.
    The Chairman. How many of those are adults of voting age?
    Ms. Locklear. We have a very young tribe.
    The Chairman. I would be interested in knowing that. I am 
sure Senator Dole would be interested in knowing that. 
[Laughter.]
    Okay, thank you. I have no further questions, but we may 
submit some to have you answer in writing.
    Ms. Locklear. Just to clarify. When we said almost 55,000, 
we were saying ``almost,'' which is the 53,000 figure. The 
40,000 is the 40,000 in Robeson County alone, but there are 
members that live elsewhere as well in surrounding counties and 
also some other places. But there is not really a discrepancy; 
that is just a clarification for the numbers.
    The Chairman. Okay. Sure. Thank you.
    Mike, I am sure you would be interested in knowing the 
number of them that can vote too, wouldn't you?
    Mr. McIntyre. You bet. [Laughter.]
    The Chairman. Okay. We will go to our last witness, James 
T. Martin from USET, who has appeared many times before the 
committee. Nice to see you, James. Go ahead.
    And as with the other witnesses, you are welcome to 
abbreviate, and may have answered a few questions already in 
earlier dialog.
    Mr. Martin. Yes, sir; Mr. Chairman, I would submit my 
written testimony as the formal testimony.
    The Chairman. It will be in the record.

STATEMENT OF JAMES T. MARTIN, EXECUTIVE DIRECTOR, UNITED SOUTH 
               AND EASTERN TRIBES, NASHVILLE, TN

    Mr. Martin. I will touch on some highlights. As I mentioned 
just a moment ago, I am certainly encouraged by the information 
provided by the Lumbees of North Carolina. But it goes more 
toward the stance that USET is taking in its formal testimony, 
that they should go through the process.
    My name, for the record, is James T. Martin. I am an 
enrolled member of the Poarch Band of Creek Indians of Alabama, 
executive director of USET, the intertribal organization 
representing 24 federally recognized Indian tribes.
    USET acknowledges that Federal recognition of Indian tribes 
is a formal act creating a perpetual government-to-government 
relationship, so I can truly understand the sincere desire of 
this group to become federally recognized. Federal recognition 
ensures tribes the dignity and the deserving of equal 
opportunity that fellow other tribes enjoy. Federal recognition 
is a complex process important to the sovereign and cultural 
stability of the tribes, in that Federal recognition creates 
that official trustee relationship and fiduciary 
responsibilities on the part of the United States.
    USET affirms that the Federal recognition mandates the 
obligation by the Federal Government to protect and preserve 
the inherent sovereign rights of a tribe. Federal recognition 
enables the tribe to gain valuable resources to break the yoke 
of unemployment, low educational levels, substandard housing 
and poverty that has plagued our people. As they have 
testified, the same things that occurred there. So I am fully 
aware and appreciative and respect their desire to gain this 
recognition, to be able to be welcomed into the society of 
other federally recognized Indian tribes.
    Federal recognition would shield the tribe from undue 
Federal and State encroachments. Without Federal recognition, 
tribes have experienced great difficulty in sustaining 
themselves as independent sovereign and cultural entities. 
Federal recognition creates the trust relationship that 
identifies the Government's fiduciary responsibility to manage 
and protect the Indian lands, natural resources and trust 
assets. The member tribes of USET realize the affirmative 
advantage of a proper Federal recognition.
    Furthermore, federally recognized tribes enjoy the inherent 
sovereign powers to be recognized by the United States to 
exercise criminal jurisdiction over tribal members and civil 
jurisdiction over all people, Indian and non-Indian, within 
their territory. Federally recognized tribes have the authority 
to engage in economic development activities, with certain 
judicial and tax advantages.
    We recognize that Congress has the power to extend certain 
recognition to groups, but in its infinite wisdom, Congress has 
deferred this Federal recognition process. Congress has 
considered this Federal recognition process a complex and 
tedious one, and it is not to be entered into lightly. Congress 
therefore deferred to the Department of Interior, which has 
established a set of regulations, standardizing the Federal 
recognition process, and creating administrative procedures to 
determine whether a particular Indian group is a federally 
recognized tribe or not. That was alluded to by Ms. Martin 
earlier, and alluded to by Ms. Locklear and other people so I 
will not restate those areas. But I would state, though, that 
this BAR procedure was the result of a 2-year study from the 
congressionally established American Indian Review Commission, 
and requests by tribes calling for standardized criteria in 
determining the future relationships of tribes to the United 
States.
    It is the BAR, not Congress, which is staffed with the 
experts such as historians, anthropologists, genealogists. It 
is there responsibility to determine the merits of the group's 
claims. I would propose to Congress that this information 
provided is a complex information. How will Congress look 
through that, when they, in your infinite wisdom, have in the 
past deferred that to the experts to be able to do that? These 
procedures were established in 1978. They were streamlined in 
1994.
    The seven criteria that were identified are there for a 
high reason. Our tribe,the Poarch Band of Creek Indians, had to 
go through that process. We had to go through it for over 20 
years. We believe in that process. USET believes in that 
process.
    I am here today to reiterate USET's longstanding tradition 
of supporting Indian groups seeking to go through the Federal 
acknowledgement process. This position is reiterated in our 
resolution 9315, restating the position on the Lumbee 
recognition, duly passed by our Board in 1993. This resolution 
expressly rejects the concept of legislative recognition of 
Indian groups in favor of the participation in the FAP process 
by the Lumbees of North Carolina on an equal basis as other 
petitioning groups.
    It is not the intent of USET to encourage the denial of 
recognition to any tribe, but it is our intent to demand that 
the FAP process and the BAR procedures for Federal recognition 
be administered equally for all groups seeking Federal 
recognition, and that that group not be allowed to bypass this 
process.
    We recognize that the Interior Solicitor's opinion states 
that the Lumbees cannot access the BAR because of Federal 
legislation. USET believes the appropriate remedy is for 
Congress to clear this barrier through legislation that would 
allow the Lumbees to access the administrative procedures. A 
bipartisan bill, as I understand it, H.R. 1408, has been 
introduced in the House that would allow that to occur.
    Additionally, Federal legislation acknowledging of a group 
would unfairly give preferential treatment to that group over 
all other groups that are patiently waiting in the BAR process. 
Moreover, providing Federal acknowledgment of a group through 
legislation invariably leads to inconsistent and subjective 
results. Without the use of uniform procedures and criteria, 
the process of according a group Federal recognition as a tribe 
will invariably be based upon emotion and politics.
    The relationship that all federally acknowledged tribes 
have with the United States and the public perception of those 
tribes is diminished if a group is afforded Federal 
acknowledgement without serious technical review. Thus Congress 
should take the politics out of Federal acknowledgment and 
allow the experts to do their job.
    I have personal friends in this audience from the Lumbee 
people. I have broken bread in their house, probably slept in 
some of their beds going to their unity conference and other 
meeting. It is not here that I state this as a personal 
opinion. It is the opinion of all tribes across the Nation, 
that there are administrative procedures that all tribes should 
go through so that they can be welcomed into, if they are 
fortunate enough to pass the process, by all tribes across 
Indian country, and not to be welcomed in with an asterisk by 
their name. I am certainly encouraged by the information 
provided that they believe that they could go through the 
administrative process and succeed. Six of the seven criteria, 
as the gentleman says, that they can meet.
    We would ask this Congress to amend those procedures to 
allow the Lumbees of North Carolina to avail themselves to the 
administrative process and review the information just as all 
other tribes have done.
    Thank you.
    [Prepared statement of Mr. Martin appears in appendix.]
    The Chairman. Thank you, Tim.
    I want to also by the way thank you on an unrelated issue, 
the very strong support that USET gave to our Indian provision 
of the energy bill that is in conference now, and hopefully 
that is going to come out intact. I think it is going to open 
up some huge opportunities for Indian tribes who want to avail 
themselves to it. As you know, it is voluntary, tribe by tribe, 
but I want to thank your Board for the help they gave us. I 
appreciate that.
    Mr. Martin. Thank you, sir.
    The Chairman. Let me ask you just a couple of things. I 
understand that some of the members of USET were legislative 
recognized at one time or another. Is that true?
    Mr. Martin. Those legislative recognitions were in 
association with land claims cases. There was not an outright 
recognition of any tribe as a stand alone recognition bill.
    The Chairman. I see.
    Mr. Martin. All of those recognitions were associated with 
land claims.
    The Chairman. So the formal position against legislative 
recognition was that of the 1993 or so resolution?
    Mr. Martin. Yes, sir; Now, the other tribes that we have in 
opposition to outright recognition was the Mowa Band of Choctaw 
Indians in the State of Alabama, which went through the BAR 
process and was denied.
    The Chairman. Well, then you did support a couple of the 
USET members that were based on land claims, you said, at least 
one.
    Mr. Martin. Yes, sir.
    The Chairman. If the Lumbees filed a land claim and got 
recognition with it, what would USET's position be on that?
    Mr. Martin. We would have to study the legislation as we 
had studied each of those legislations before and make a 
determination on that, based upon the merits of that 
legislation.
    The Chairman. You have 23 members. Is that a unanimous 
decision when you make that, or is it a majority position of 
the Board or what?
    Mr. Martin. Decision by the Board are by majority vote. On 
particular legislation, we are not bound by if they vote for a 
position that is taken by the group as a whole. Individual 
tribes may on their own take it upon themselves to support 
individual legislations. Our motto is that there is strength in 
unity, but those are sovereign nations that should be able to 
make their public stance known.
    The Chairman. Is there any interaction now between USET and 
the Lumbees? You talked about personal friendships, but is 
there any interactive tribal things that go on between any of 
the tribes in USET and the Lumbees?
    Mr. Martin. There is no formal interaction between the USET 
organization and the Lumbees. We have to draw a line in the 
sand. USET is an intertribal organization of 24 federally 
recognized tribes.
    The Chairman. The members that did get recognition through 
the legislative process for land claims, have you ever heard 
them regretting doing it through the legislative route over the 
administrative route?
    Mr. Martin. I am not aware of them expressing an opinion in 
favor or not, sir.
    The Chairman. Okay.
    I have no further questions, but I certainly appreciate 
your being here and I am sorry we had you wait so long. I know 
as that storm gets closer, some people are going to want to get 
home, and hopefully you will all in the audience be able to get 
out to the airport if you are flying, and if you are driving be 
safe.
    We are going to keep the record open 2 weeks. If there is 
any additional testimony from anybody in the audience or from 
the people that testified that you would like the committee to 
study. If you would get that to us within the next two weeks, 
we will make sure that all the members get that.
    I thank you, Senator Dole, for bringing this bill to the 
attention of the committee.
    With that, this committee is adjourned.
    [Whereupon, at 11:52 p.m. the committee was adjourned, to 
reconvene at the call of the Chair.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


    Prepared Statement of Aurene Martin, Principal Deputy Assistant 
        Secretary for Indian Affairs, Department of the Interior

    Good morning, Mr. Chairman and members of the committee. My name is 
Aurene Martin and I am the principal deputy assistant secretary--Indian 
Affairs at the Department of the Interior. I am here today to provide 
the Administration's testimony on S. 420, the ``Lumbee-Acknowledgment 
Act of 2003.'' The recognition of another sovereign is one of the most 
solemn and important responsibilities delegated to the Secretary of the 
Interior. Federal acknowledgment enables tribes to participate in 
Federal programs and establishes a government-to-government 
relationship between the United, States and the tribe. Acknowledgment 
carries with it certain immunities and privileges, including exemptions 
from State and local jurisdiction and the ability to undertake casino 
gaming. The Department believes that the Federal acknowledgment process 
set forth in 25 C.F.R. Part 83, ``Procedures for Establishing that an 
American Indian Group Exists as an Indian Tribe,'' allows for the 
uniform and rigorous review necessary to make an informed decision 
establishing this important government-to-government relationship.
    Before the development of these regulations, the Federal Government 
and the Department of the Interior made determinations as to which 
Indian groups were tribes when negotiating treaties and determining 
which groups could reorganize under the Indian Reorganization Act (25 
U.S.C. 461). Ultimately there was a backlog in the number of petitions 
from groups throughout the United States requesting that the Secretary 
officially acknowledge them as Indian tribes. Treaty rights litigation 
in the West coast, such as United States v. Washington (384 F. Supp. 
312, 279 (W.D. Wash. 1974), aft'd, 520 F.2d 676 (9th Cir. 1975), cert. 
denied, 423 U.S. 1086 (1976)), and land claims litigation on the East 
coast, such as Joint Tribal Council of Passamaquoddy v. Morton (528 
F.2d 370 (1st Cir. 1975)), highlighted the importance of these tribal 
status decisions. Thus, the Department in 1978 recognized the need to 
end ad hoe decisionmaking and to adopt uniform regulations for Federal 
acknowledgment.
    Under the Department's regulations, petitioning groups must 
demonstrate that they meet each of seven mandatory criteria. The 
petitioner must:
    (1) demonstrate that it has been identified as an American Indian 
entity on a substantially continuous basis since 1900; (2) show that a 
predominant portion of the petitioning group comprises a distinct 
community and has existed as a community from historical times until 
the present; (3) demonstrate that it has maintained political influence 
or authority over its members as an autonomous entity from historical 
times until the present; (4) provide a copy of the group's present 
governing document including its membership criteria; (5) demonstrate 
that its membership consists of individuals who descend from a 
historical Indian tribe or from historical Indian tribes that combined 
and functioned as a single autonomous political entity and provide a 
current membership list; (6) show that the membership of the 
petitioning group is composed principally of persons who are not 
members of any acknowledged North American Indian tribe, and (7) 
demonstrate that neither the petitioner nor its members are the subject 
of congressional legislation that has expressly terminated or forbidden 
the Federal relationship.
    A criterion shall be considered met if the available evidence 
establishes a reasonable likelihood of the validity of the facts 
relating to that criterion.
    Under the Indian Commerce Clause, Congress has the authority to 
recognize a ``distinctly Indian community'' as a tribe. Because, of its 
support for the deliberative regulatory acknowledgment process, 
however, the Department of the Interior has traditionally opposed 
legislative recognition. Notwithstanding that preference, the 
Department recognizes that some legislation is needed given the unique 
status of the Lumbee.
    In 1956, Congress designated Indians then ``residing in Robeson and 
adjoining counties of North Carolina'' as the ``Lumbee, Indians of 
North Carolina.'' in the Act of June 7, 1956 (70 Stat. 254). Congress 
went on to note the following:
    Nothing in this act shall make such Indians eligible for any 
services performed by the United States for Indians because of their 
status as Indians, and none of the statutes of the United States which 
affect Indians because or their status as Indians shall be applicable 
to the Lumbee Indians.
    In 1989, the Department's Office of the Solicitor advised that the 
1956 Act forbade the Federal relationship within the meaning of 25 
C.F.R. Part 83, and that the Lumbee Indians were therefore precluded 
from consideration for Federal acknowledgment under the administrative 
process. Because of the 1956 Act, we acknowledge that legislation is 
necessary if the Lumbee Indians are to be afforded the opportunity to 
petition the Bureau of Indian Affairs' Office of Federal 
Acknowledgement under 25 C.F.R. Part 83. The Department would welcome 
the opportunity to assist the Congress in drafting such legislation.
    If Congress elects to bypass the regulatory acknowledgement process 
in favor of congressional recognition, it may only recognize the Lumbee 
as a tribe pursuant to its Indian Commerce Clause authority if a court 
could decide that Congress had not acted arbitrarily in implicitly or 
explicitly finding that the Lumbee constitute a distinctly Indian 
community. Among other factors, Congress would have to identify or be 
relying upon the historical continuity of a unified community under one 
leadership or government. If Congress made the proper express findings 
(or implicitly relied on sufficient evidence) and then granted the 
Lumbee Indians federally recognized status, the Department believes 
that Congress should be cognizant of several important issues that 
Federal recognition raises. As currently drafted, S. 420 leaves many 
questions to these issues unanswered.
    Under the provisions of this bill, the Lumbee Tribe would be 
afforded all benefits, privileges and immunities of a federally 
recognized tribe. Thus, the Lumbee Tribe would be authorized to conduct 
gaming activities pursuant to the Indian Gaming Regulatory Act (IGRA). 
Prior to conducting class III gaming, the tribe would need to negotiate 
a gaming compact with the State of North Carolina. In addition, the 
tribe must have lands taken into trust. Generally, if a tribe wants to 
game on land taken into trust after the passage of IGRA, it must go 
through the two-part determination described in 25 U.S.C. 
Sec. 2719(b)(1)(A). This process requires the Secretary to determine, 
after consultation with the tribe and the local community, that gaming 
is in the best interest of the tribe and its members and not 
detrimental to the local community. If the Secretary makes that 
determination in favor of allowing gaming, then the gaming still cannot 
occur without the Governor's concurrence. The bill as drafted does not 
prohibit gaming.
    The Department has devoted a great deal of time to trust reform 
discussions. The nature of the trust relationship is now often the 
subject of litigation. Both the executive branch and the judicial 
branch are faced with the question of what exactly did Congress intend 
when it established a trust relationship with individual tribes, and 
put land into trust status. What specific duties are required of the 
Secretary, administering the trust on behalf of the United States, with 
respect to trust lands? Tribes and individual Indians frequently argue 
that the duty is the same as that required of a private trustee. Yet, 
under a private trust, the trustee and the beneficiary have a legal 
relationship that is defined by private trust default principles and a 
trust instrument that defines the scope of the trust responsibility. 
Congress, when it establishes a trust relationship, should provide the 
guideposts for defining what that relationship means.
    Much of the current controversy over trust stems from--the failure 
to have clear guidance as to the parameters, roles and responsibilities 
of the trustee and the beneficiary. In this case, given that we would 
be taking land into trust in an area in which there has not previously 
been Federal trust land, such issues as land use, zoning, and the scope 
of the Secretary's trust responsibility to manage the land should be 
addressed with clarity and precision. Congress should decide these 
issues, not the courts. Therefore, we recommend the committee set forth 
in the bill the specific trust duties it wishes the United States to 
assume with respect to the Lumbee. Alternatively, the committee should 
require a trust instrument before any land is taken into trust. This 
trust instrument would ideally be contained in regulations drafted 
after consultation with the tribe and the local community, consistent 
with parameters set forth by Congress in this legislation. The benefits 
of either approach are that it would clearly establish the 
beneficiary's expectations, clearly define the roles and 
responsibilities of each party, and establish how certain services are 
provided to tribal members.
    Another issue we have identified is the designation of a 
reservation and a service area for the tribe. S. 420 would designate 
Robeson County as the tribe's reservation and names several other 
counties as its service area. Typically Congress has designated land 
held in trust by the Secretary as a tribe's reservation. Counties are 
then appropriately designated as service areas. Under the Act, all of 
Robeson County would be considered ``Indian Country'' under 18 U.S.C. 
1151. By declaring the entire county as a reservation, the legislation 
raises law enforcement and other important jurisdictional, taxation, 
and land use issues for Robeson County. Criminal and civil 
jurisdictions are two areas that are required to be addressed under the 
Department's land-to-trust regulations under 25 C.F.R. Part 151 
precisely because of the potential impact on the local community and 
its potential impact upon the relationship between the tribe and local 
residents. Moreover, designating an area as reservation has 
implications for other groups in the area that might seek recognition.
    We are also concerned with the provision requiring the Secretary, 
within 1 year, to verify tribal membership. In our experience this is 
an extremely involved process that has taken several years with much 
smaller tribes. We don't currently have access to these rolls and have 
no idea what would be involved to verify them. Moreover, S. 420 is 
silent as to the meaning of verification. Section 5 also requires the 
Department to determine eligibility for services. However, each program 
has different criteria for eligibility and the Secretary of the 
Interior cannot determine eligibility for such things as health care. 
Finally, section 5 may raise a Recommendations Clause problem by 
purporting to require the President to submit annually to the Congress 
as part of his annual budget submission a budget that is recommended by 
the head of an executive department for programs, services and benefits 
to the Lumbee Tribe. Under the Recommendations Clause of the 
Constitution, the President submits for the consideration of Congress 
such measures as the President judges necessary and expedient.
    Should Congress choose not to enact S. 420, the Department feels 
that at a minimum, Congress should amend the 1956 Act to afford the 
Lumbee Indians the opportunity to petition the Bureau of Indian 
Affairs' Office of Federal Acknowledgment under 25 C.F.R. Part 83.
    This concludes my prepared statement. I would be happy to answer 
any questions the committee may have.

[GRAPHIC] [TIFF OMITTED] T9476.001

[GRAPHIC] [TIFF OMITTED] T9476.002

[GRAPHIC] [TIFF OMITTED] T9476.003

[GRAPHIC] [TIFF OMITTED] T9476.004

[GRAPHIC] [TIFF OMITTED] T9476.005

[GRAPHIC] [TIFF OMITTED] T9476.006

[GRAPHIC] [TIFF OMITTED] T9476.007

[GRAPHIC] [TIFF OMITTED] T9476.008

[GRAPHIC] [TIFF OMITTED] T9476.009

[GRAPHIC] [TIFF OMITTED] T9476.010

[GRAPHIC] [TIFF OMITTED] T9476.011

[GRAPHIC] [TIFF OMITTED] T9476.012

[GRAPHIC] [TIFF OMITTED] T9476.013

[GRAPHIC] [TIFF OMITTED] T9476.014

[GRAPHIC] [TIFF OMITTED] T9476.015

[GRAPHIC] [TIFF OMITTED] T9476.016

[GRAPHIC] [TIFF OMITTED] T9476.017

[GRAPHIC] [TIFF OMITTED] T9476.018

[GRAPHIC] [TIFF OMITTED] T9476.019

[GRAPHIC] [TIFF OMITTED] T9476.020

[GRAPHIC] [TIFF OMITTED] T9476.021

[GRAPHIC] [TIFF OMITTED] T9476.022

[GRAPHIC] [TIFF OMITTED] T9476.023

[GRAPHIC] [TIFF OMITTED] T9476.024

[GRAPHIC] [TIFF OMITTED] T9476.025

[GRAPHIC] [TIFF OMITTED] T9476.026

[GRAPHIC] [TIFF OMITTED] T9476.027

[GRAPHIC] [TIFF OMITTED] T9476.028

[GRAPHIC] [TIFF OMITTED] T9476.029

[GRAPHIC] [TIFF OMITTED] T9476.030

[GRAPHIC] [TIFF OMITTED] T9476.031

[GRAPHIC] [TIFF OMITTED] T9476.032

[GRAPHIC] [TIFF OMITTED] T9476.033

[GRAPHIC] [TIFF OMITTED] T9476.034

[GRAPHIC] [TIFF OMITTED] T9476.035

[GRAPHIC] [TIFF OMITTED] T9476.036

[GRAPHIC] [TIFF OMITTED] T9476.037

[GRAPHIC] [TIFF OMITTED] T9476.038

[GRAPHIC] [TIFF OMITTED] T9476.039

[GRAPHIC] [TIFF OMITTED] T9476.040

[GRAPHIC] [TIFF OMITTED] T9476.041

[GRAPHIC] [TIFF OMITTED] T9476.042

[GRAPHIC] [TIFF OMITTED] T9476.043

[GRAPHIC] [TIFF OMITTED] T9476.044

[GRAPHIC] [TIFF OMITTED] T9476.045

[GRAPHIC] [TIFF OMITTED] T9476.046

[GRAPHIC] [TIFF OMITTED] T9476.047

[GRAPHIC] [TIFF OMITTED] T9476.048

[GRAPHIC] [TIFF OMITTED] T9476.049

[GRAPHIC] [TIFF OMITTED] T9476.050

[GRAPHIC] [TIFF OMITTED] T9476.051

[GRAPHIC] [TIFF OMITTED] T9476.052

[GRAPHIC] [TIFF OMITTED] T9476.053

[GRAPHIC] [TIFF OMITTED] T9476.054

[GRAPHIC] [TIFF OMITTED] T9476.055

[GRAPHIC] [TIFF OMITTED] T9476.056

[GRAPHIC] [TIFF OMITTED] T9476.057

[GRAPHIC] [TIFF OMITTED] T9476.058

[GRAPHIC] [TIFF OMITTED] T9476.059

[GRAPHIC] [TIFF OMITTED] T9476.060

[GRAPHIC] [TIFF OMITTED] T9476.061

[GRAPHIC] [TIFF OMITTED] T9476.062

[GRAPHIC] [TIFF OMITTED] T9476.063

[GRAPHIC] [TIFF OMITTED] T9476.064

[GRAPHIC] [TIFF OMITTED] T9476.065

[GRAPHIC] [TIFF OMITTED] T9476.066

[GRAPHIC] [TIFF OMITTED] T9476.067

[GRAPHIC] [TIFF OMITTED] T9476.068

[GRAPHIC] [TIFF OMITTED] T9476.069

[GRAPHIC] [TIFF OMITTED] T9476.070

[GRAPHIC] [TIFF OMITTED] T9476.071

[GRAPHIC] [TIFF OMITTED] T9476.072

[GRAPHIC] [TIFF OMITTED] T9476.073

[GRAPHIC] [TIFF OMITTED] T9476.074

[GRAPHIC] [TIFF OMITTED] T9476.075

[GRAPHIC] [TIFF OMITTED] T9476.076

[GRAPHIC] [TIFF OMITTED] T9476.077

[GRAPHIC] [TIFF OMITTED] T9476.078

[GRAPHIC] [TIFF OMITTED] T9476.079

[GRAPHIC] [TIFF OMITTED] T9476.080

[GRAPHIC] [TIFF OMITTED] T9476.081

[GRAPHIC] [TIFF OMITTED] T9476.082

[GRAPHIC] [TIFF OMITTED] T9476.083

[GRAPHIC] [TIFF OMITTED] T9476.084

[GRAPHIC] [TIFF OMITTED] T9476.085

[GRAPHIC] [TIFF OMITTED] T9476.086

[GRAPHIC] [TIFF OMITTED] T9476.087

[GRAPHIC] [TIFF OMITTED] T9476.088

[GRAPHIC] [TIFF OMITTED] T9476.089

[GRAPHIC] [TIFF OMITTED] T9476.090

[GRAPHIC] [TIFF OMITTED] T9476.091

[GRAPHIC] [TIFF OMITTED] T9476.092

[GRAPHIC] [TIFF OMITTED] T9476.093

[GRAPHIC] [TIFF OMITTED] T9476.094

[GRAPHIC] [TIFF OMITTED] T9476.095

[GRAPHIC] [TIFF OMITTED] T9476.096

[GRAPHIC] [TIFF OMITTED] T9476.097

[GRAPHIC] [TIFF OMITTED] T9476.098

[GRAPHIC] [TIFF OMITTED] T9476.099

[GRAPHIC] [TIFF OMITTED] T9476.100

[GRAPHIC] [TIFF OMITTED] T9476.101

[GRAPHIC] [TIFF OMITTED] T9476.102

[GRAPHIC] [TIFF OMITTED] T9476.103

[GRAPHIC] [TIFF OMITTED] T9476.104

[GRAPHIC] [TIFF OMITTED] T9476.105

[GRAPHIC] [TIFF OMITTED] T9476.106

[GRAPHIC] [TIFF OMITTED] T9476.107

[GRAPHIC] [TIFF OMITTED] T9476.108

[GRAPHIC] [TIFF OMITTED] T9476.109

[GRAPHIC] [TIFF OMITTED] T9476.110

[GRAPHIC] [TIFF OMITTED] T9476.111

[GRAPHIC] [TIFF OMITTED] T9476.112

[GRAPHIC] [TIFF OMITTED] T9476.113

[GRAPHIC] [TIFF OMITTED] T9476.114


</pre></body></html>
